<html>
<title> - FIRST RESPONDER TECHNOLOGIES: ENSURING A PRIORITIZED APPROACH FOR HOMELAND SECURITY RESEARCH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







   FIRST RESPONDER TECHNOLOGIES: ENSURING A PRIORITIZED APPROACH FOR 
                               HOMELAND 
                   SECURITY RESEARCH AND DEVELOPMENT

=======================================================================

                             JOINT HEARING

                               before the

                SUBCOMMITTEE ON EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                and the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2012

                               __________

                           Serial No. 112-90

                               __________

       Printed for the use of the Committee on Homeland Security





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

77-804 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001










                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
                                     Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Robert L. Turner, New York
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
               Vacant, Minority Professional Staff Member

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                 Zachary D. Harris, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member









                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     2
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Robert Griffin, Director of First Responder Programs, Science 
  and Technology Directorate, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Ms. Mary H. Saunders, Director, Standards Coordination Office, 
  National Institute of Standards and Technology:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Edward Kilduff, Chief of Department, New York City Fire 
  Department, New York, New York:
  Oral Statement.................................................    22
  Prepared Statement.............................................    25
Ms. Annette Doying, Director, Office of Emergency Management, 
  Pasco County, Florida:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Ms. Kiersten Todt Coon, President and CEO, Liberty Group 
  Ventures:
  Oral Statement.................................................    33
  Prepared Statement.............................................    36

                                Appendix

Questions From Chairman Gus Bilirakis for Robert Griffin.........    53
Questions From Chairman Daniel Lungren for Robert Griffin........    53

 
   FIRST RESPONDER TECHNOLOGIES: ENSURING A PRIORITIZED APPROACH FOR 
               HOMELAND SECURITY RESEARCH AND DEVELOPMENT

                              ----------                              


                         Wednesday, May 9, 2012

     U.S. House of Representatives,        
      Committee on Homeland Security,      
   Subcommittee on Emergency Preparedness, 
          Response, and Communications, and
     Subcommittee on Cybersecurity, Infrastructure 
             Protection, and Security Technologies,
                                            Washington, DC.
    The subcommittees met, pursuant to call, at 11:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the Emergency Preparedness, Response, and 
Communications subcommittee] presiding.
    Present from the Subcommittee on Emergency Preparedness, 
Response, and Communications: Representatives Bilirakis, 
Walberg, Long, Clarke of New York, and Richmond.
    Present from the Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies: 
Representatives Lungren, Marino, Richardson, and Clarke of 
Michigan.
    Mr. Bilirakis. Good morning. It is still morning. The Joint 
Hearing of the Committee on Homeland Security, Subcommittee on 
Emergency Preparedness, Response, and Communications and the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittees are meeting today to receive testimony on 
Federal efforts to research, develop, and deploy technologies 
to help first responders achieve their vital missions. I now 
recognize myself for an opening statement.
    I am pleased our two subcommittees are once again meeting 
to consider a topic of mutual interest and concern. Our 
Nation's first responders are vital members of the Homeland 
Security Enterprise. First responders at the State and local 
level are first on the scene of a terrorist attack, natural 
disaster, or other emergency and we must ensure that they have 
the training, equipment, and technology they need to get the 
job done.
    The Department of Homeland Security Science and Technology 
Directorate through its First Responder Group has taken steps 
to work with Federal partners, the first responder community, 
and the private sector to research, develop, and get to market 
technologies that will enhance response capabilities.
    I want to thank Dr. Griffin for bringing some of the 
technologies--and they are right here--that S&T has developed 
along with him today. So thanks for bringing them, Doctor. I 
appreciate it very much. They provide great examples of S&T's 
on-going work.
    I am interested in hearing from our Federal witnesses about 
how technology requirements and standards are set for this 
technology and how successful we have been in getting these 
promising technologies into the hands of first responders. I am 
also interested in hearing how DHS assists first responders in 
identifying appropriate technology as they consider how to 
allocate grant funding.
    From our first responder witnesses, I am interested in your 
perspective in how the technology research and development 
process is working, and how well your input is being integrated 
into that process. I will say that I am disappointed that FEMA 
declined to participate in today's hearing.
    FEMA's National Integration Center and Grant Programs 
Directorate regularly work with S&T and the first responder 
community and provide resources for technology identification 
and procurement through grant funds, responder knowledge base, 
and project responder. It would have been nice, of course, to 
have their input in today's hearing. So I am very disappointed. 
However, the subcommittees' oversight of this issue will 
continue after this hearing and that oversight will include 
FEMA.
    With that, I welcome our distinguished panel of witnesses 
and we look forward to your testimony.
    The Chairman now recognizes the Ranking Member of the 
Subcommittee on Emergency Preparedness, Response, and 
Communications. Of course, the gentlelady and the Ranking 
Member from California, Ms. Richardson, you are recognized.
    Ms. Richardson. Good morning. Thank you, Mr. Chairman 
Bilirakis and also Mr. Lungren for supporting this hearing 
today.
    As Ranking Member on Emergency Communications, 
Preparedness, and Response Subcommittee, and also a Member of 
Cybersecurity with my colleague here from New York, Ms. Clarke, 
I have a documented interest in ensuring that Science and 
Technology Directorate effectively meets the needs of first 
responders.
    Today, we will hear from Dr. Griffin on Science and 
Technology Directorate's efforts to better meet the needs of 
first responders like others on this panel. Yet, I equally am 
concerned, as Mr. Bilirakis has just stated, of FEMA's failure 
and its decline to appear and testify before us today. 
Discussing FEMA's role in ensuring that our first responders 
have the equipment they need to respond to disaster safely and 
effectively should be a priority for all of us.
    In previous hearings, this committee has joined with the 
Government Accountability Office and the Department of Homeland 
Security's Inspector General to raise appropriate questions 
about S&T's efforts to meet the responsibilities to the first 
responder community. Before 2009, concerns were brought to the 
Director regarding the inadequate conduct of adequate outreach 
for first responders in the community. It was noted before 2009 
that S&T had not identified the needs of first responders. If a 
system to identify needs does not exist, then the assignment of 
priorities certainly cannot be done in a meaningful way.
    Equally, last November, Under Secretary O'Toole appeared 
before the Subcommittee on Cybersecurity to discuss her efforts 
to reorganize S&T and to put it on the right track. At that 
same time, she informed us of her efforts to establish a first 
responder group to identify the priorities of the first 
responders community and to allocate appropriate resources 
accordingly.
    Further, the Under Secretary was made aware of and had 
discussed herself the improvements and the mechanisms that she 
had established to ensure that taxpayer dollars are used 
effectively about the effect of budget cuts that would occur on 
S&T's first responder activities. The Under Secretary was 
candid with this committee about the impacts of the 
Congressional budget cuts that would allow S&T to address only 
two or three of the 11 first responder priorities identified by 
the National Academy of Public Administration.
    It is unfortunate that as S&T is working to become more 
responsive to the needs of first responders, Congress is 
significantly reducing its ability to do so by cutting its 
funding. Today, as the Appropriations Committee on Homeland 
Security marks up the Department's budget, I think it is 
important to bear in mind how S&T's budget affects its ability 
to work to get things done and to ensure that S&T has the 
proper infrastructure to invest the money necessary that we 
have deemed in this committee. Although S&T has made progress 
since 2009, more must be done to fully carry out the R&D 
strategies and to fully implement the evaluation metrics.
    I am also eager to hear from representatives of the first 
responder community about their technology needs and whether 
they feel the Department has effectively solicited and 
responded to their input. Current challenges do exist and we 
need to make sure that they are removed.
    I look forward to the testimony today and I yield back the 
balance of my time.
    Mr. Bilirakis. Thank you very much. Now I recognize the 
Ranking Member of the Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies, the 
gentlelady from New York, Ms. Clarke, you are recognized.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman. 
I thank the Ranking Member, Ms. Richardson, as well as Chairman 
Lungren for convening this joint hearing.
    Having a closer look at how the Homeland Security 
Enterprise and First Responders Groups operates in S&T will be 
valuable. I also want to welcome all of our witnesses, 
especially my fellow New Yorker, Chief Ed Kilduff. Thank you 
for taking the time from your responsibilities to come to 
Washington today.
    Over the years, many of our successes have come from our 
ability to forge practical solutions from tough challenges. 
This committee has been supportive of the S&T Directorate in 
becoming better prepared to make such contributions for first 
responders. This progress is due to the hard work of S&T's 
people, our better understanding of the precise problems, and 
to the increasing capacity to make use of innovation from our 
laboratories, universities, and the private sectors.
    The S&T Directorate has found it challenging to craft an 
overall strategy for first responder needs. It has also lacked 
the mechanisms necessary to assess past performance. Over the 
past few years, GAO and OIG reports have suggested that the 
Department had not yet developed a transparent, risk-based 
methodology to determine what first responder projects to fund, 
how much to fund, and how to evaluate the project's 
effectiveness and usefulness. Without clearly defined metrics, 
Congress cannot gauge project goals and evaluate funding.
    I am eager to hear of the strides that the first responder 
group may have made in evaluating first responder needs, 
developing new and readapting existing technology, creating 
standards and prioritizing how first responder R&D moves 
forward. What we do here in Washington affects how fire 
fighters, police, EMS technicians, border and maritime 
security, doctors and nurses protect Americans every day, 
especially in times of disaster.
    One key issue in translating what works at the local level 
is finding a way to communicate success, so each jurisdiction 
doesn't have to reinvent the wheel. Local first responders must 
feel more empowered to develop strategic initiatives for 
themselves. They recognize the importance of interoperability 
and the collaboration across jurisdictional boundaries. They 
know that crises do not stop at city and county lines.
    In the end, Congress needs to know how current first 
responder technology investments position S&T for the future. 
We must have a clear view of how first responder projects are 
aligned with customer requirements and how projects are 
prioritized and evaluated.
    We have been told by Under Secretary O'Toole that decreases 
in S&T's budget will wipe out dozens of programs, stalling the 
development of technologies for border protection, detection of 
biohazards, cargo screening, and leaving in doubt research in 
IED detection. Striving to do more with less is always a symbol 
of an efficiently running program of any type, but trying to 
protect our citizens and Nation with programs that are backed 
by limited and dwindling science and technology assets is 
another matter.
    There are serious concerns about what programs the 
Directorate will have to give up as result of the budget voted 
by the majority. I look forward to hearing from Director 
Griffin on how he will prioritize the project in a reduced 
Homeland Security Enterprise and First Responder Group 
operation.
    I thank you, Mr. Chairman. I yield the balance of my time.
    Mr. Bilirakis. Thank you, Ms. Clarke. I do want to report 
that this year's budget--this bill that is on the floor is $158 
million above last year's level, so I am glad to see that.
    Other Members are reminded that statements may be submitted 
for the record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                              May 9, 2012
    Good afternoon. I want to thank our witnesses for being here today.
    To effectively prioritize resources, we need to align technology 
and training with the specific needs of our first responders.
    Since fiscal year 2002, DHS has awarded $35 billion in Federal 
grant money. Because of significant budget cuts and grant 
consolidation, fewer resources will be available to the first responder 
community.
    As the ``boots on the ground'' in every emergency and disaster, 
first responders have a unique vantage point on equipment needs and 
equipment failures.
    The Department must have a two-way dialogue with the first 
responder community.
    It is only through planning based on such a dialogue that Science 
and Technology will be able to prioritize its limited resources and 
conduct research and development that meets the needs of the first 
responder community.
    It is my understanding that the Under Secretary has established a 
First Responder group to begin such a dialogue.
    However, FEMA's involvement in this group is unclear.
    As the agency within the Department with the most direct 
interaction with the first responder community, FEMA should be much 
more than a liaison.
    Further, in light of budget cuts to the Science and Technology 
Directorate and the Homeland Security Grant Program, DHS must take a 
fresh look at its research and development resources.
    S&T's activities must be designed to meet real needs.
    In the past, I have had serious concerns about how the Science and 
Technology Directorate invested resources.
    In 2009, for example, S&T funded a project on something called 
``brain music,'' which was billed as research that would help first 
responders.
    This project had been funded for several years without any 
measurable results.
    At the time, I questioned the wisdom of funding that project, and 
how it could have any practical use for a fire fighter, police officer, 
or other first responder.
    After today's hearing, I want the Under Secretary to inform me 
whether the ``brain music'' project is still being funded.
    I commend the Under Secretary for her reorganization of S&T and 
hope that the alignment of research with real needs will enhance this 
Nation's safety and security.
    However, we all know that the austerity measures forced by this 
Congress will seriously undermine your ability to conduct meaningful 
research and development.
    My colleagues on the other side of the aisle tout the need to do 
more with less. However, reducing the number of scientists and 
engineers involved in working on a problem does not help us arrive at 
solutions any sooner.
    As Ben Franklin once said, ``an investment in knowledge pays the 
best interest.''
    I look forward to the testimony of all of the witnesses, and I 
yield back the balance of my time.

    Mr. Bilirakis. I now am pleased to welcome our 
distinguished panel of witnesses.
    Our first witness is Dr. Bob Griffin. Dr. Griffin is the 
director of first responder programs in the Department of 
Homeland Security Science and Technology Directorate, a 
position he has held since August 2012--2010, excuse me.
    Prior to joining DHS, Dr. Griffin served as the director of 
environmental services for Arlington County, Virginia. He also 
served as Arlington's director of emergency management and as 
the assistant county administrator and chief of fire and rescue 
in Loudoun County, Virginia.
    Dr. Griffin earned his Ph.D. in Public Administration from 
Virginia Tech and his Master's degree in Public Administration 
and Bachelor's of Science in Political Science from UMass 
Amherst.
    Following Dr. Griffin, we will hear from Ms. Mary Saunders. 
Ms. Saunders is the director of the standards coordination 
office at the National Institute of Standards and Technology.
    Prior to her current position at the NIST, Ms. Saunders 
served as the deputy assistant secretary for manufacturing and 
services at the International Trade Administration. Ms. 
Saunders has been in Federal service for more than 30 years, 
including with the Department of Army and the U.S. Military 
Academy.
    Next, we will hear from testimony from Chief Edward 
Kilduff. Chief Kilduff is from New York City, New York City's 
Fire Department, 34th Chief of Department, a position to which 
he has been appointed. He was appointed in January 2010.
    Prior to his position, Chief Kilduff served as a Brooklyn 
Borough commander and has been a New York City fire fighter 
since 1977. Thank you for your service, Chief. Chief Kilduff 
has a Bachelor's of Arts degree in Political Science from 
Amherst College.
    Following Chief Kilduff, we will receive testimony from Ms. 
Annette Doying. Ms. Doying is emergency management director for 
Pasco County, Florida, and serves as the Tampa Bay Emergency 
Management co-chair to Florida's Domestic Security Oversight 
Council.
    Ms. Doying has been educated as an EMT and has trained in 
chemical, biological, radiological, nuclear, and explosives 
response. Ms. Doying also has a graduate degree in Applied 
Forensics Anthropology from the University of South Florida.
    Finally, we will hear testimony from Kiersten--Ms. Kiersten 
Coon. Ms. Coon is the president and CEO of Liberty Group 
Ventures. She previously served on the staff of the U.S. Senate 
Committee on Governmental Affairs. Ms. Coon has a Public Policy 
degree from Princeton University and a Master's degree in 
Public Policy from the Kennedy School of Government at Harvard 
University.
    I want to welcome all the witnesses. Your entire written 
statements will appear in the record. I ask that you summarize 
your testimony for 5 minutes. Again, welcome. I will ask Dr. 
Griffin to begin and you are recognized, sir. Thank you.

   STATEMENT OF ROBERT GRIFFIN, DIRECTOR OF FIRST RESPONDER 
  PROGRAMS, SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Griffin. Good morning. Thank you. Chairman Bilirakis, 
Ranking Member Richardson, Ranking Member Clarke, Members of 
the subcommittee, I would like to begin by apologizing to 
anybody in the audience that hopes to hear from the quarterback 
for the Redskins. I am Robert Griffin. I am not that Robert 
Griffin. I am the Director of the Support to the Homeland 
Security Enterprise and First Responder Group in Science and 
Technology.
    I joined the Federal Government August 2010, after 20 years 
of service in local government, including service as a fire 
chief and emergency manager.
    My approach to the research and development for first 
responders is based on a mix of field experience, empathy, and 
a healthy dose of operational pragmatism. In December 2010, 
Under Secretary O'Toole realigned the Directorate and created a 
group to better understand, prioritize, and transition S&T's 
work to the first responder community.
    I will present a quick overview of how we integrate first 
responder operational needs into our process, create 
methodologically valid approaches to drive critical funding 
decisions, promote innovation to meet capability gaps, and 
leverage partnerships to maximize our funding. To scope the 
challenge and opportunity of my role, the first responder 
community consists of over 80,000 different agencies, each of 
which has numerous needs and strong opinions on priorities.
    To capture and prioritize the needs and requirements of 
this diverse and often divergent community, we developed a 
methodology to prioritize gaps and expand first responder 
participation.
    In order to build trust, we created a transparent process 
to identify first responder needs in strategic programmatic 
areas. Working with FEMA and first responders from a cross-
section of disciplines, geography, demographics, and levels of 
government, we commissioned a third iteration of Project 
Responder to identify and prioritize capability gaps. From 
these gaps, we developed projects based on a criterion that 
includes meeting operational needs, building on existing 
investments, leveraging interagency and private sector 
resources, promoting non-proprietary solutions, and increasing 
market competition.
    We recognize that getting research to the field requires 
solutions that are affordable with a clear transition path. We 
have broadened our participation requirements gathering by 
leveraging on-going work in the Interagency Board, professional 
associations, and other regional collaborative efforts. The use 
of multiple groups allows us to gather requirements from a 
larger cross-section of first responders, while validating gaps 
and funding priorities.
    While strengthening the process is important, our measure 
of success is transitioning technologies to operational use. We 
have successfully commercialized the multi-band radio, the 
protective backboard cover, explosive and hazardous materials 
response application, the compact rescue tool, the dazzler, the 
pipe bomb cap remover for improved forensics and bomb tech 
safety. We have also developed technology, like the advanced 
breathing apparatus that you see in front of you with private-
sector partners who are working to bring this technology to 
market.
    Recent efforts have brought significant technology 
innovations to the first responder community, allowing them to 
become more resilient, efficient, and effective in executing 
their missions. Innovation is often limited by budget 
constraints, the capacity to incrementally incorporate new 
technologies into operations, while overcoming procurement, 
cultural, and functional challenges.
    Innovation can be creative. The creative use of existing 
technologies, like Kevlar and Breathing Apparatus or Tyvek, act 
as an impervious barrier to protect patients from contaminated 
body fluids.
    As a former fire chief, I am used to working in teams and 
leveraging others' resources. For example, building off the 
investments of the Department of Defense, we developed 
requirements that linked industry to the first responders to 
build and test the multi-band radio prototypes you see before 
you. The multi-band project provides a single radio capable of 
operating across disparate public safety radio bands. These 
radios are now available commercially from three manufacturers. 
In addition to local jurisdictions, ICE, the FBI, and Marine 
Corps are all procuring these radios for use.
    We are also currently working with the Army's National 
Protection Center and NATICK, Kell Fire, the U.S. Fire Service, 
Australia, and the commercial sector to develop wildland fire 
fighter gear that improves radiant thermal protection, form, 
fit, and function, and reduces heat stress. This project 
leverages funding from not only DHS, but DOD and the Department 
of Agriculture. During this summer's fire season, the gear will 
be field-tested by over a thousand fire fighters in California, 
as we work to reduce wildland fire fighter deaths and injuries.
    Following Project Responder, we are working on virtual 
training, first responder tracking, hazard location, 
interoperable communications, and protective clothing and 
equipment. We will also continue to work in areas such as 
extending the operational life of existing technologies, 
technology forging, developing with NIST and others in 
communications, data sharing, ambulance safety, and alerts and 
warnings.
    Every dollar we are allocated is targeted to improving the 
operations of the men and women like Chief Kilduff and Ms. 
Doying. My team recognizes that by keeping the first responders 
safer, directly translates to keeping the Nation safer.
    Thank you for the opportunity to address the committee. I 
am happy to answer any questions you may have.
    [The statement of Mr. Griffin follows:]
                  Prepared Statement of Robert Griffin
                              May 9, 2012
                              introduction
    Good morning Chairman Lungren, Chairman Bilirakis, Ranking Member 
Clarke, Ranking Member Richardson, and Members of the subcommittees. 
Thank you for inviting me to speak with you today about our efforts to 
develop technologies to assist first responders.
    The Department of Homeland Security (DHS) remains committed to 
helping first responders Nation-wide by ensuring that they are 
prepared, equipped, and trained for any situation and by bringing 
together information and resources to prepare for and respond to a 
terrorist attack, natural disaster, or other large-scale emergency. The 
DHS Science and Technology (S&T) Directorate's mission is to strengthen 
America's security and resiliency by providing knowledge products and 
innovative technology solutions for the Homeland Security Enterprise 
(HSE). To meet the diverse needs of the HSE, S&T provides value by 
pursuing a strategy which is operationally focused, highly innovative, 
and founded on building strong partnerships. As the primary research, 
development, testing, and evaluation agency for the first responder 
community, S&T provides the HSE with strategic and focused technology 
options and operational process enhancements. S&T provides the 
technical depth and reach to discover, adapt, and leverage technology 
solutions developed by Federal agencies and laboratories, State, local, 
and Tribal governments, universities, and the private sector--across 
the United States and internationally.
    This commitment is reflected in S&T's third strategic goal, which 
charges the Directorate to ``strengthen the Homeland Security 
Enterprise and First Responders' capabilities to protect the homeland 
and respond to disasters.'' To meet this goal S&T created the Support 
to the Homeland Security Enterprise and First Responders Group (FRG) to 
foster S&T's understanding of the needs and requirements of responders. 
The responder community consists of more than 60,000 disparate agencies 
across a variety of disciplines, including but not limited to fire, law 
enforcement, emergency management, and emergency medical services. By 
engaging first responders at every stage of the technology development 
cycle, FRG pursues a better understanding of their functional needs and 
requirements, and develops innovative solutions to their most pressing 
operational challenges. Without an effective research, development, 
testing, and evaluation program that specifically address their needs, 
responders have largely either done without or relied on vendor-driven 
solutions.
    Since it was created in December 2010, FRG has committed to 
understanding the mission and operational requirements of first 
responders, creating high-impact technologies and knowledge products, 
improving interoperability of equipment, and increasing first 
responders' access to technical- and science-based information. To 
maximize limited funding, FRG is focusing on advanced technologies that 
address the greatest multi-functional need and that can be developed 
for first responders within a 12- to 18-month time frame--providing 
them access to new technology that meet at least 80 percent of their 
requirements. FRG has also focused on building methodologically sound 
processes to define and prioritize first responder needs while engaging 
responders at all levels of government. This process has allowed FRG to 
fund the highest-priority projects identified by practitioners and 
leverage resources from partners within DHS and across other levels of 
government to create the greatest impact.
                           guiding principles
    To safely and effectively respond in dangerous environments, first 
responders need access to better technology and equipment. FRG 
approaches project solutions with pragmatic criteria in mind. Through 
direct engagement with first responders, FRG has identified several 
guiding principles used as criteria to assist with identifying 
solutions including:
  <bullet> Practitioner-Driven Approach.--Recognizing that initiatives 
        must be based on user needs and driven from the field.
  <bullet> Building on Existing Investments.--Encouraging efficiencies 
        by building on existing investments saves money by avoiding 
        unnecessary and costly new hardware, software, data 
        development, and training.
  <bullet> Leveraging Existing Solutions.--Conducting environmental 
        scans to help leverage existing interagency and private sector 
        solutions before any investments in new solutions are made.
  <bullet> Daily Use Solutions.--Seeking technological solutions that 
        improve not only catastrophic response but daily use by first 
        responders.
  <bullet> Non-Proprietary Solutions.--Ensuring that technologies from 
        different manufacturers can actually interoperate requires the 
        use of open-source, non-proprietary solutions.
  <bullet> Affordable and Accessible Solutions.--Recognizing that 
        solutions need to be affordable and commercially available for 
        purchase.
                      solution development process
    In 2009, S&T established the First Responder Integrated Product 
Team (IPT), often referred to as the 13th IPT, to address the most 
critical needs of the first responder community. Building on the First 
Responder IPT, FRG established a more methodologically comprehensive 
process--known as the Solution Development Process (see Figure 1)--to 
identify and address the most critical needs of the community.
    In partnership with first responders, FRG uses the Solution 
Development Process to identify, validate, and facilitate the 
fulfillment of needs through the use of existing and emerging 
technologies, knowledge products, and standards. This process focuses 
FRG's limited funding on priorities identified by the first responder 
community. The process provides methodological rigor and allows for 
programmatic prioritization before projects are funded. This has helped 
ensure that related projects are coordinated, thereby consolidating 
efforts and saving time and money. The Solution Development Process is 
designed to operate within the broader S&T portfolio review process, 
which evaluates projects based on impact, transition, technology 
positioning, clarity of purpose, customer involvement, and innovation. 
Additionally, this process supports the S&T Resource Allocation 
Strategy which includes all activities and processes associated with 
the timely development and transition/transfer of S&T products. 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    As part of the Solution Development Process, first responders from 
around the country including those serving on S&T's First Responder 
Resource Group (FRRG),\1\ the InterAgency Board for Equipment 
Standardization and Interoperability (IAB),\2\ and Project Responder 
\3\ focus groups identify the current capability gaps faced by the 
community. These capability gaps are used by stakeholders to generate 
accompanying requirements. FRG uses the capability gaps, requirements, 
and its own analysis to inform its resource allocation and the private 
sector's research and development investments. FRG selects projects for 
funding based on a number of criteria including: The practitioner-
identified gaps, criticality/operational impact, threat likelihood, 
applicability, state of the science, cost-benefit analysis, ease of 
integration, transition likelihood, and time needed to prototype. The 
responders work with FRG program managers throughout the life cycle of 
each project and assist DHS in creating awareness of these newly-
developed solutions in the field. FRG then works with the first 
responder community and commercial sector partners to transition the 
technologies, standards, and knowledge products and integrate them into 
regular use.
---------------------------------------------------------------------------
    \1\ The FRRG includes over 120 practitioners from a wide array of 
professional disciplines representing all levels of the public sector.
    \2\ The IAB is a voluntary collaborative panel of emergency 
preparedness and response practitioners from a wide array of 
professional disciplines that represent all levels of government and 
the public sector.
    \3\ Project Responder is a partnership between FRG, the Homeland 
Security Studies and Analysis Institute, the IAB, and the Federal 
Emergency Management Agency's National Preparedness Directorate to 
identify capability gaps and prioritize areas of investment to address 
or reduce those gaps.
---------------------------------------------------------------------------
First Responder Coordination
    Direct first responder interaction is paramount to S&T's ability to 
deliver critically-needed solutions and technologies to the emergency 
preparedness and response community. S&T established the FRRG to aid in 
this mission by serving as a mechanism for continuous dialogue and the 
coordination of research, development, and delivery of technology 
solutions to first responders at the local, State, Tribal, territorial, 
and Federal levels. As part of the FRRG, responders from around the 
country are engaged throughout FRG's Solution Development Process to 
identify, validate, and facilitate the fulfillment of first responder 
needs through the use of existing and emerging technologies, knowledge 
products, and standards. In addition to being geographically diverse, 
the FRRG membership represents jurisdictions of varying population 
sizes and budget size. The membership also represents the wide breadth 
of professions involved in emergency preparedness and response that 
includes, but is not limited to, leaders and experts in law 
enforcement, fire fighting, emergency medical services, emergency 
management, 9-1-1, public health, hospital preparedness, Geospatial 
Information Systems, and information security.
    One of the areas both first responder and industry leaders 
identified as needing improvement was a clearer articulation of the 
funding priorities. Recognizing this, FRG has focused its resources on 
this critical first step of FRG's Solution Development Process. Project 
Responder 3 is the third iteration in a series of studies to identify 
gaps between current and required capabilities to ensure that 
responders can effectively and safely address catastrophic incidents, 
both now and in the future. By leveraging Project Responder 3 and the 
FRRG, FRG is currently focused on the following five highest priority 
areas:
  <bullet> Readily accessible, high-fidelity simulation tools to 
        support training in incident management and response.
  <bullet> The ability to remotely monitor the tactical actions and 
        progress of all responders involved in the incident in real 
        time.
  <bullet> The ability to know the location of responders and their 
        proximity to risks and hazards in real time.
  <bullet> The ability to communicate with responders in any 
        environmental conditions (including through barriers, inside 
        buildings, and underground).
  <bullet> Protective clothing and equipment for all first responders 
        that protects against multiple hazards (e.g., heat, smoke, 
        blood-borne or airborne pathogens, and projectiles).
    These priority areas are currently being used to help guide 
research and development investment by the Federal Government, as well 
as, local, Tribal, State, and territorial authorities, and the private 
sector.
Realized Solutions
    One example of how FRG partners to bring solutions to operations is 
the Wildland Firefighters Advanced Personal Protection System. Wildland 
fire fighters are often required to respond to emergencies in remote 
areas. This can involve hiking from a staging area to the fire 
location. Because the fire season takes place during the warmest months 
of the year, wildland fire fighters frequently must work under extreme 
heat and humidity. The Wildland Firefighters Advanced Personal 
Protection System will help to reduce heat stress--a major concern for 
wildland fire fighting personnel who must wear and carry a significant 
amount of personal protective gear to perform their duties. FRG is 
working with the U.S. Army Natick Research, Development & Engineering 
Center's National Protection Center (Natick), the California Department 
of Forestry and Fire Protection (CALFIRE), the United States Fire 
Service, and others to develop a National Fire Protection Association 
(NFPA) certified garment system that improves radiant thermal 
protection; reduces heat stress; and improves form, fit, and function 
when compared to existing garment systems.
                         technology transition
    Transitioning technology for regular use by first responders 
remains a critical challenge for S&T. To help mitigate this challenge, 
FRG leverages the Center for Commercialization of Advanced Technology 
(CCAT) process, in coordination with San Diego State University, to 
solicit proposals from the vendor community for technologies that 
address gaps identified by first responders. The goal of this process 
is to develop technologies in 12 to 18 months that meet 80 percent or 
more of the requirement identified by the first responder community, 
with transition occurring 6 to 12 months after project completion. 
Should a capability gap be both unique and one that receives a high-
priority ranking by practitioners, contracts may then be awarded. By 
using CCAT, FRG is able to bring first responders, industry, and 
business professionals together under one focus, which allows FRG to 
provide solutions more efficiently. This process ensures that each 
technology development is undertaken with a high probability of 
successfully transitioning to the first responder community.
    A core focus of S&T is the rapid delivery of new technologies that 
address the mission needs of the first responder community. Over the 
past year, S&T has used Research, Development, and Innovation funding 
to develop technologies and knowledge products important to a range of 
homeland security activities and customers. FRG, with a cost share from 
industry, has been able to develop and transition technology solutions 
to the first responder community. Recent transitions include:
First Responder Equipment
  <bullet> Board Armour<SUP>TM</SUP> Backboard Cover.--Repurposing the 
        Tyvex<SUP>TM</SUP> material used to wrap houses in 
        construction, S&T, in partnership with Advanced EMS Designs, 
        developed a disposable backboard cover to better protect 
        patients and responders from disease and contaminants. This 
        product was developed, tested, and commercialized in less than 
        8 months. It is now commercially available for about $10.
  <bullet> Next-Generation Self-Contained Breathing Apparatus (SCBA).--
        S&T partnered with the Mine Safety Appliance Company to 
        integrate and certify S&T's lighter and smaller profile SCBA 
        cylinder array into a full SCBA ensemble that has been 
        certified by the Department of Transportation and tested 
        against National Fire Protection Association standards. This 
        represents the first major redesign in decades of this critical 
        piece of first responder safety equipment.
  <bullet> First Responder Support Tool (FIRST)-Bomb Response.--S&T 
        partnered with Applied Research Associates, Inc. to develop a 
        smartphone application that provides authorized first 
        responders the information necessary to safely control incident 
        locations such as stand-off distances, rough damage and injury 
        contours, nearby areas of concern (e.g., schools and daycare 
        centers), and suggested roadblocks that could help isolate an 
        incident. FIRST-Bomb Response also provides improvised 
        explosive device and HAZMAT guidelines, reference information, 
        and points of contact to call for questions and assistance. 
        This capability is available through the Apple App store, the 
        Android Market, and the ARA Store for laptops.
  <bullet> Semi-Autonomous Pipe Bomb End Cap Remover (SAPBER).--This 
        technology removes end caps from pipe bombs while keeping 
        operators at a safe distance and collecting video and physical 
        evidence from the pipe bomb. SAPBER is a small, low-cost system 
        capable of remote operation and accommodating a range of 
        possible pipe bomb sizes and configurations.
Interoperable Communications Solutions
  <bullet> Multi-Band Radio (MBR).--To provide a successful coordinated 
        response, emergency responders must be able to effectively 
        communicate with all partners across jurisdictional lines, 
        including local, regional, State, and Federal entities. Until 
        recently, no public safety radio existed that was capable of 
        operating on more than one radio band. S&T developed the 
        requirements for a hand-held MBR that allows first responders 
        to communicate with partner agencies, regardless of the band on 
        which they operate. The first responder communities in Chicago, 
        Illinois, Miami, Florida, and New Orleans, Louisiana 
        participated in highly successful pilots of the technology. 
        S&T's efforts sparked industry interest: MBRs are now 
        commercially available from four manufacturers (Thales 
        Communications, Inc., Harris Corporation, Datron World 
        Communications, and Motorola Solutions, Inc.). Recently the 
        Federal Bureau of Investigation and the United States Marine 
        Corps both announced they would be procuring MBRs for 
        operational use. This project is just one example of how FRG 
        efforts can result in useful market competition.
  <bullet> Voice over Internet Protocol (VoIP).--This project enables 
        legacy analog radio systems to interoperate with similar 
        systems as well as with new digital systems. Given the need for 
        standardized implementations, the VoIP Working Group is 
        producing specifications, or implementation profiles, for the 
        most critical VoIP interfaces. The first VoIP specification 
        developed by the working group is the Bridging Systems 
        Interface (BSI) Core Profile, which allows first responder 
        agencies to seamlessly connect radio systems over an IP network 
        regardless of the manufacturer. Thirteen manufacturers 
        voluntarily adopted the BSI platform and others have committed 
        to doing so in their next product cycle. This helps reduce 
        costs for first responder agency's system design and 
        installation.
  <bullet> Virtual USA (vUSA).--A collaborative effort among S&T, 
        other DHS agencies, and State and local emergency management 
        agencies, vUSA improves information sharing among agencies and 
        other partners. vUSA is a blend of process and technology that 
        provides a virtual pipeline to allow data (such as the 
        operational status of critical infrastructure or emergency 
        vehicle locations) to be shared by different systems and 
        operating platforms with no changes to the current system. 
        Selected as a White House Open Government Initiative and a 
        flagship DHS Open Government Initiative, vUSA is currently in 
        use in 23 States. Earlier this year, FRG initiated a pilot in 
        the Northeast to integrate vUSA and the Next-Generation 
        Incident Command System (NICS). NICS improves first responder 
        situational awareness, collaboration, and interagency 
        interoperability during disaster response efforts by displaying 
        incident information--such as road closures and fire hot 
        spots--on a shared on-line map, allowing it to be shared 
        between local agencies and local-to-State. The San Diego County 
        Board of Supervisors has agreed to use vUSA/NICS as the primary 
        way of sharing information within the county as well as with 
        other agencies outside of San Diego County. The CALFIRE is also 
        adopting vUSA/NICS as their incident command and data sharing 
        system. Partnering with the DHS Office of the Chief Information 
        Officer's Office of Operations Coordination and Planning, S&T 
        plans to make vUSA/NICS available as part of the Homeland 
        Security Information Network (HSIN). vUSA users now have HSIN 
        accounts, which allows them to access a new HSIN Community of 
        Interest that provides a suite of collaboration services such 
        as web conferencing and instant messaging and access to new 
        geospatial data.
  <bullet> Commercial Mobile Alert Service (CMAS).--This program 
        provides a National capability to deliver relevant, timely, and 
        geographically-targeted messages to mobile devices. In December 
        2011, New York City partnered with S&T and the Federal 
        Emergency Management Agency (FEMA) to conduct the first end-to-
        end test of the CMAS tool. CMAS has reached its initial 
        operating capability and S&T is working on several research, 
        development, testing, and evaluation activities designed to 
        improve current and future system capabilities.
  <bullet> Emergency Data Exchange Language (EDXL) Suite of 
        Standards.--These standards help responders share critical data 
        in any form. By sending messages to tablets, computers, and 
        phones with EDXL-compliant software, real-time information 
        arrives at the fingertips of those who need it most. EDXL 
        standards are helping provide the ability to exchange all-
        hazard emergency alerts, notifications, and public warnings as 
        well as to the exchange of hospital status, capacity, and 
        resource availability/usage information among medical and 
        health organizations and emergency information systems.
    In fiscal year 2012, FRG is working on additional projects 
including:
  <bullet> Heads Up Display for HazMat Suits.--This device will monitor 
        the internal and external temperatures both inside and outside 
        a responder Level-A suit and will provide a warning when 
        hazardous temperatures are reached.
  <bullet> Improved Structure Glove.--This next-generation high 
        dexterity structural fire glove will dramatically improve water 
        repellency, heat and flame protection, puncture resistance, 
        dexterity, and don and doff ability.
  <bullet> Wireless Vital Sign Monitoring.--This hands-free body-worn 
        system, lacking any external wires, will measure vital signs 
        and properties through a short-range wireless interface, and 
        during transport, will transmit data from the ambulance to a 
        receiving hospital through a long-range wireless interface. In 
        an effort to leverage DoD's work in this area, this project 
        uses the 1401 Technology Transfer Program to make use of 
        similarly developed DoD technology. FRG is in the process of 
        awarding a contract to modify the technology so it can be used 
        by EMT emergency responders on the civilian side.
  <bullet> Next Generation Textiles for Personal Protective Equipment 
        (PPE).--FRG is working across the S&T community to identify 
        current technology and research efforts to determine the 
        feasibility of a material that could provide protection against 
        multiple threats (e.g., chemical/biological agents, ballistic, 
        puncture, and fire/thermal) while maintaining wearer comfort. 
        By improving the normal response garments, FRG will ensure that 
        first responders have safer PPE that will protect them--even in 
        unexpected incidents. This project is part of S&T's Small 
        Business Innovation Research Program that was initiated in 
        2004. Two solicitations are issued per year and consist of 
        topics that address the needs of the seven DHS Operational 
        Units (e.g., U.S. Coast Guard, U.S. Transportation Security 
        Administration, U.S. Customs and Border Protection, Federal 
        Emergency Management Agency), as well as first responders.
  <bullet> National Information Sharing Consortium.--FRG is partnering 
        with a core group of leaders in State and local government to 
        build the National Information Sharing Consortium to address 
        and promote State-wide information sharing and data 
        interoperability. The purpose of the Consortium is to promote 
        private investment and creativity to enhance data sharing and 
        the creation of collaborative technologies and exchange 
        environments. The Consortium's activities will include the 
        sharing of software code, applications, and model practices. 
        The Consortium will oversee the on-going transition of vUSA as 
        an operational capability for local and State use.
  <bullet> Virtual Training.--FRG is conducting research to leverage 
        existing Government funding investments and technological 
        advances that use capabilities available in the gaming 
        industry, interagency simulations, and virtual interactive 
        training to promote different first responder operating 
        training opportunities. Virtual training can dramatically 
        reduce training costs, help standardize training--especially 
        for multi-agency events--and make it possible to provide more 
        responders the training required to respond to emergencies.
    FRG also works closely with other elements of S&T to improve first 
responders' operational capabilities. Additional examples of S&T's 
recent transition successes include:
  <bullet> Controlled Impact Rescue Tool (CIRT).--Decreases by 85 
        percent the time it takes to breach reinforced concrete walls 
        while increasing first responders' control and overall safety. 
        S&T demonstrated and transferred CIRT to Fairfax County Fire 
        and Rescue, who routinely deploy internationally to assist in 
        rescues from disasters both natural and man-made. CIRT is now 
        commercially available from Raytheon Corporation, which shared 
        development costs with S&T.
  <bullet> Explosives Trace Detection.--For checked baggage screening, 
        this next-generation device is ten times more sensitive than 
        existing systems, can detect narcotics as well as explosives, 
        and is similarly priced to existing machines. The system is 
        currently undergoing operational testing with the 
        Transportation Security Administration and will be commercially 
        available within a year.
  <bullet> SportEvac.--This is computer modeling software developed by 
        S&T that provides simulation of evacuations allowing venue 
        operators to determine the safest evacuation and optimum plans 
        and procedures. The Indianapolis Department of Public Safety 
        used SportEvac in their security and safety planning for this 
        year's NFL Super Bowl. This technology is covered by the SAFETY 
        Act.\4\
---------------------------------------------------------------------------
    \4\ The Support Anti-terrorism by Fostering Effective Technologies 
Act of 2002 (SAFETY Act) provides important legal liability protections 
for providers of Qualified Anti-Terrorism Technologies--whether they 
are products or services.
---------------------------------------------------------------------------
  <bullet> Geo-spatial Location Accountability and Navigation System 
        for Emergency Responders (GLANSER).--A tool which allows 
        incident commanders to locate and track personnel inside 
        enclosed areas. Honeywell, Inc. has begun to commercialize 
        GLANSER.
  <bullet> Qualification Testing on White Powder Detector.--S&T 
        completed qualification testing for a commercially-available 
        system that allows first responders to determine if suspicious 
        white powders contain threat agents. The process relied upon 
        the S&T-developed Public-Safety Actionable Assay standards that 
        ensure local jurisdictions are using technology that meets 
        rigorous specifications for accuracy and sensitivity.
  <bullet> System Assessment and Validation for Emergency Responders 
        (SAVER).--SAVER is an S&T program that provides knowledge 
        products that enable responders to better select, procure, use, 
        and maintain their responder equipment. The SAVER Program 
        conducts objective assessments of commercial responder 
        equipment and systems and provides those results along with 
        other relevant equipment information to the emergency response 
        community in an operationally useful form. SAVER focuses 
        primarily on answering two main questions for the responder 
        community: ``What commercial equipment is available?'' and 
        ``How does it perform?'' The knowledge products produced by the 
        SAVER Program are available to the responder community through 
        FEMA's Responder Knowledge Base (RKB).
    Moving forward, FRG will continue to serve as a voice for the first 
responder community. While FRG itself stood up in 2010, FRG's Office 
for Interoperability and Compatibility (OIC) was established in 
2004.\5\ OIC has a long history of developing solutions to help 
strengthen first responder communications for legacy systems. OIC's 
technical capability and firm understanding of first responder needs 
has resulted in a trusted relationship with the first responder 
community. Recently, FRG has played a similar role for DHS operational 
components serving as a technical resource for the DHS Tactical 
Wireless Communications Modernization Effort (TacNet) as the Department 
makes critical procurement decisions for communications systems. FRG 
intends on continuing to play this role for legacy systems as well as 
emerging systems that use new technology.
---------------------------------------------------------------------------
    \5\ 6 U.S.C.  195.
---------------------------------------------------------------------------
    Not only is it important to develop and transition technologies, 
but it is also vital to inform the first responder community about the 
type of technologies and services that are available to them. FRG is 
committed to building high levels of trust with the field and does so 
through direct interaction with first responders. At the same time, FRG 
is continuing to identify effective, innovative, affordable ways to 
enhance those efforts, including working to increase the use of virtual 
meetings, brain storming platforms, and social media to strengthen our 
contacts with the field.
    The Homeland Security Act of 2002 requires DHS to establish a 
Federal clearinghouse for information and technology, to encourage and 
support innovative solutions to enhance homeland security.\6\ 
FirstResponder.gov and First Responder Communities of Practice (FR CoP) 
are two websites that were developed by S&T to support this mandate. 
FirstResponder.gov debuted in January 2007 as a ``one-stop'' portal to 
enable local, Tribal, State, and Federal first responders to easily 
access and leverage Federal web services, information on resources, 
products, standards, testing and evaluation, and best practices, in a 
collaborative environment. In 2010, S&T unveiled a newly redesigned and 
enhanced FirstResponder.gov, which includes original news stories and 
communication tools to help first responders engage directly with DHS. 
FirstResponder.gov has more than 200 links to Federal, State, and local 
resources; is linked from more than 300 external sites; and is either 
the first or second website listed for a ``first responder'' query in 
both Google and Yahoo. FRG also developed the FR CoP. FR CoP is a 
professional networking, collaboration, and communication platform for 
first responders and others working in homeland security and provides 
an opportunity for responders to share lessons learned and best 
practices to assist other departments. FR CoP has approximately 3,000 
members and more than 100 communities.
---------------------------------------------------------------------------
    \6\ 6 U.S.C.  193.
---------------------------------------------------------------------------
                               conclusion
    S&T is committed to developing technologies for and providing 
technology information to our first responders, to assist them in 
conducting their mission to protect the Nation more effectively, 
efficiently, and safely. While we have seen significant results, 
capability gaps remain and the response environment's constantly 
changing, which necessitates S&T to continually evaluate needs, 
required capabilities, and potential investments and innovations. S&T 
will continue to work with partners at the local, Tribal, State, 
territorial, and Federal levels to maximize investments as we develop 
new technologies to meet responders' highest priority needs. My vision 
for FRG is grounded in the principles I discussed earlier, and I look 
forward to achieving that vision for our Nation's first responder 
community.
    Thank you for inviting me to appear before you today. I appreciate 
the opportunity to testify and would be pleased to answer any questions 
you may have.

    Mr. Bilirakis. Thank you, Dr. Griffin. Now I recognize Ms. 
Saunders. You are recognized for 5 minutes. Welcome.

STATEMENT OF MARY H. SAUNDERS, DIRECTOR, STANDARDS COORDINATION 
     OFFICE, NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Ms. Saunders. Thank you. Chairman Bilirakis, Ranking 
Members Richardson and Clarke, and Members of the 
subcommittees, thank you for this opportunity to discuss 
standards development and this role in standards that relates 
to equipment for and in support of our first responders.
    NIST is a non-regulatory agency within the U.S. Department 
of Commerce, whose mission is to promote U.S. innovation and 
industrial competitiveness by advancing measurement science, 
standards, and technology in ways that enhance economic 
security and improve our quality of life.
    Mr. Chairman, a U.S. voluntary consensus standards system 
is bottom-up, private-sector-driven, and sector-focused. The 
Government participates as an equal and very interested 
partner. In contrast to many other countries, the Federal 
Government does not control or direct the standards system in 
the United States.
    As the Nation's measurement laboratory, NIST has multiple 
roles relating to standards in the Federal enterprise. This 
standards coordination function, defined by statute has been 
borne out by a track record of over a hundred years of 
technical excellence and objectivity. NIST's strong ties to the 
industry and the standards development community have enabled 
us to take on critical standards-related challenges and deliver 
timely and effective solutions.
    NIST also leads the National Science and Technology Council 
Subcommittee on Standards, which brings together senior 
officials from across the Federal Government to engage on 
standards-related issues. NIST views standardization as an 
important tool to enable U.S. innovation and competitiveness, 
and facilitate the effective and efficient transfer of 
technology from the NIST laboratories to the marketplace.
    Mr. Chairman, I would like to highlight for you some of 
NIST's programmatic activities that relate directly to 
standards development for a wide variety of first responder 
equipment, from telecommunications interoperability for public 
safety to materials research and more. One of the most 
important issues facing the first responder community is the 
current inability of telecommunications equipment to talk 
across systems or interoperate. NIST is deeply involved in the 
effort to foster interoperability.
    The Middle Class Tax Relief and Job Creation Act of 2012 
has allocated $7 billion in funding and made new broad-band 
spectrum in the 700 MHz band available to public safety, 
setting a foundation for a unified system operating on common 
spectrum bands that will foster Nation-wide roaming and 
interoperability and provide access to broadband data, video, 
mapping, GPS applications, and more. NIST Public Safety 
Communications Research Program, with support and funding from 
DHS S&T, has stood up a 700 MHz Public Safety Broadband 
Demonstration Network at our Boulder, Colorado campus, that 
serves both as a vendor-neutral environment and a test bed to 
aid and requirements gathering and standards development.
    Leveraging our staff's expertise and the unique assets of 
the Boulder facilities, TSCR has taken steps to get the network 
up and running, including acquiring 700 MHz band class 14LTE 
commercial broadband equipment free of charge as part of a 
series of cooperative research and development agreements. 
Knowledge gleaned from network testing and evaluation will 
allow us to understand where current commercial standards meet 
public safety needs and where there are gaps. Identified needs 
will be incorporated into a standards development strategy.
    Broadband presents a unique opportunity for public safety. 
It is crucial that public safety's requirements are reflected 
in the LTE standards, so that Federal grant dollars and 
taxpayer dollars are spent only on equipment that is both 
interoperable and performs as required under high user volume 
in emergency conditions, allowing first responders to better 
carry out their mission of protecting lives and property.
    NIST has also been involved in research efforts within the 
National Institute of Justice to develop standards related to 
body armor. A key NIJ standard describes how body armor used by 
first responders should perform and includes methods for 
testing and evaluating the armor. Nearly every piece of body 
armor worn by law enforcement officers in this country complies 
with the NIJ standard.
    Beginning in 2005, NIST provided assistance to NIJ to 
revise the standard to address a number of concerns. NIST 
developed a new protocol through which armor is exposed to an 
environment of elevated temperature, humidity, and mechanical 
tumbling, and then subjected to ballistic tests. This proposed 
protocol has been incorporated into the most recent revision of 
the NIJ standard issued in July 2008 and continues to be used 
in NIJ's body armor compliance testing program.
    NIST is creating critical solution-enabling measurement 
science and technical contributions underpinning emerging 
standards, codes, and regulations that are used to improve the 
safety and effectiveness of fire fighters. We are working with 
local and States' fire services, manufacturers, and a range of 
other Federal agencies on equipment such as self-contained 
breathing apparatus, thermal imaging cameras, and personal 
alert safety systems.
    I will talk specifically about the PASS devices, which are 
designed to signal for aid if a fire fighter becomes 
incapacitated. NIST investigators found evidence that PASS 
signal failed to function properly in the fire fighter's 
environment. NIST determined that exposure to higher 
temperature environments negatively affected the loudness of 
the alarm signal. As it cooled, the alarm signal on most of the 
units returned to pre-exposure sound levels. NIST researchers, 
supported by DHS S&T, developed a new high temperature 
functionality requirement and test protocol, a life-saving 
improvement for each of the 1.25 million fire fighters whose 
past devices were upgraded.
    Mr. Chairman, NIST, in conjunction with other Federal 
agencies, is focusing on developing test methods in a number of 
areas and has other activities focused on specific environments 
of interest in which the first responder community operates.
    We look forward to continuing to work with our Federal, 
State, local, and private sector partners to improve safety and 
performance of our Nation's first responders. Thank you, again.
    [The statement of Ms. Saunders follows:]
                 Prepared Statement of Mary H. Saunders
                              May 9, 2012
    Chairmen Bilirakis and Lungren, Ranking Members Richardson and 
Clarke, Members of the subcommittees, I am Mary Saunders, director, 
Standards Coordination Office of the National Institute of Standards 
and Technology (NIST). I want to thank you for this opportunity to 
discuss standards development and NIST's role in standards as it 
relates to equipment for and in support of our first responders.
    NIST is a non-regulatory Federal agency within the U.S. Department 
of Commerce. NIST's mission is to promote U.S. innovation and 
industrial competitiveness by advancing measurement science, standards, 
and technology in ways that enhance economic security and improve our 
quality of life. Our efforts to drive innovation through advances in 
measurement science enable industry to bring technological advances to 
the commercial market sooner, thereby helping U.S. manufacturers stay 
globally competitive. The focus on innovation is critical if we are to, 
as the President and Secretary of Commerce John Bryson have noted, 
``make it here and sell it everywhere.''
    Today's hearing is focused on innovation as it relates to the 
development of standards for equipment used by or in support of the 
first responder community. My testimony will discuss the standards 
ecosystem in which NIST works, address the issue of standards as a help 
or hindrance to innovation in this space, highlight some examples of 
our work related to first responders, and the touch upon the technical 
challenges ahead.
                        the standards ecosystem
    Mr. Chairman, the U.S. voluntary, consensus standards system is 
bottom-up, industry-driven, and sector-focused. The Government 
participates as an equal and interested partner. Federal, State, local, 
and Tribal government representatives participate when the activity is 
relevant to their needs, and consistent with their respective missions 
and functions. In contrast to the Government-directed, prescriptive 
standards that characterize the systems in place in a number of other 
countries, the Federal Government does not control or direct the 
standards system in the United States.
    The modern-day engagement of the U.S. Government in the formal U.S. 
standards system can be traced back to the founding of the organization 
that has evolved into the American National Standards Institute (ANSI). 
In 1916, the Department of Commerce was one of the founding members of 
the American Engineering Standards Committee, formed to be an 
``impartial national body to coordinate standards development, approve 
national consensus standards, and halt user confusion on 
acceptability.''\1\
---------------------------------------------------------------------------
    \1\ http://www.ansi.org/about_ansi/introduction/
history.aspx?menuid=1.
---------------------------------------------------------------------------
    Since the founding of the American Engineering Standards Committee, 
U.S. Government agencies have been extensively involved in the 
development and use of standards to meet agency missions and 
priorities. This engagement was catalyzed in 1995 by the passage of the 
National Technology Transfer and Advancement Act (Pub. L. 104-113), 
which directed Federal agencies to ``use technical standards that are 
developed or adopted by voluntary consensus standards bodies, using 
such technical standards as a means to carry out policy objectives or 
activities determined by the agencies and departments'',\2\ except 
where inconsistent with applicable law or impractical.
---------------------------------------------------------------------------
    \2\ Pub. L. 104-113 National Technology Transfer and Advancement 
Act of 1995,  12(d)(1). (available at: http://standards.gov/
standards_gov/nttaa.cfm).
---------------------------------------------------------------------------
    The strength and agility of the U.S. standards system stems from 
its sector-specific focus. Individual industry and technology sectors 
are served by standards developing organizations that are sensitive to 
and responsive to that sector's needs, and understand the dynamics of 
that technology and industry. While there is no formal count of the 
number of standards developers in the United States, it is estimated 
that there are about 600 standards-setting organizations based in the 
United States.
                     the federal government's role
    Federal Government agencies engage in standardization in a wide 
range of mission-specific roles, including contributing to development 
of standards in the private sector and using standards for procurement 
or regulatory actions. In fiscal year 2010, more than 2,800 Federal 
agency staff from across the Federal enterprise participated in more 
than 500 private-sector standards organizations. This participation is 
spurred in large part by the National Technology Transfer and 
Advancement Act (NTTAA) of 1995 (Pub. L. 104-113), and the associated 
OMB Circular A119. The NTTAA directs agencies to consider the use of 
voluntary consensus standards, in lieu of Government unique standards, 
and OMB A-119 reflects this direction and also strongly encourages 
agencies to participate in standards development activities to ensure 
that the resulting standards are better suited to meet agency needs.
                nist's role in the u.s. standards system
    NIST plays a critical role in the context of Federal engagement in 
the standards process. As the Nation's measurement laboratory, NIST has 
multiple roles relating to standards in the Federal enterprise. NIST's 
coordination function, defined by statute, has been borne out by a 
track record of technical excellence and objectivity, embraced by 
NIST's world-class scientists and engineers, ever since the Institute 
was chartered by Congress in 1901. NIST's strong ties to industry and 
the standards development community, backed by technical excellence, 
have enabled NIST to take on critical standards-related challenges and 
deliver timely and effective solutions.
    NIST also plays a leadership role on the National Science and 
Technology Council's Subcommittee on Standards (SOS), which brings 
together senior officials across the Federal Government to engage on 
standards-related issues. In October 2011, the subcommittee issued a 
report, ``Federal Engagement in Standards Activities to Address 
National Priorities: Background and Proposed Policy Recommendations,'' 
that provided an overview of the current legal and policy frameworks 
for Government engagement in private-sector standardization and 
conformity-assessment activities; described how the Government engages 
in those activities; summarized stakeholder observations in response to 
a request for information about Government engagement in 
standardization; and outlined policy recommendations to supplement 
existing guidance to agencies. As a follow-up to this report, the 
administration released a memo in January 2012 highlighting the need 
for continued work in the standards area.\3\
---------------------------------------------------------------------------
    \3\ http://www.whitehouse.gov/sites/default/files/omb/memoranda/
2012/m-12-08.pdf.
---------------------------------------------------------------------------
    NIST views standards and standardization as an important tool to 
enable U.S. innovation and competitiveness. NIST engagement in the 
private-sector-led standards system enables the effective and efficient 
transfer of technology from the NIST laboratories to the marketplace. 
This is further made possible by the participation of nearly 400 NIST 
technical staff in over 100 standards organizations, and more than 
1,000 different standards activities, in support of domestic and 
international priorities. It is noteworthy that this number represents 
more than a quarter of the NIST technical staff. NIST's engagement with 
industry in these standards activities also provides us the ability to 
learn first-hand about industry's measurement, standards, and research 
needs, and this provides valuable input into our prioritization of 
current NIST programs and planning for future programs.
    Mr. Chairman, I would like to highlight for you some of NIST's 
specific programmatic activities that directly relate to standards 
development for a wide variety of first responder equipment. Given the 
foundational nature of NIST's research mission in measurement science 
and standards, NIST technical expertise is being brought to bear across 
multiple sectors. From telecommunications interoperability for public 
safety to materials research, NIST technical expertise, in 
collaboration with industry, academia, and other Federal entities, such 
as the Department of Homeland Security's Science and Technology 
Directorate (DHS S&T), can improve the reliability, safety, and 
performance of equipment used by first responders across the country.
   examples of nist standards activities related to first responder 
                               equipment
700 MHz Public Safety Broadband Communications
    This subcommittee is very aware of challenges facing the first 
responder community. One of the most important issues is the current 
inability of telecommunications equipment to talk across systems, or 
``interoperate''. NIST is deeply involved in the effort to foster 
interoperability.
    The public safety community is experiencing a generational shift in 
technology that will revolutionize the way it communicates. 
Traditionally, emergency responders have used land mobile radio 
technology that has limited data capabilities and suffers from a large 
installed base of stove-piped proprietary systems with non-contiguous 
spectrum assignments. As a result, public safety has long struggled 
with effective cross-agency/jurisdiction communications and lags far 
behind the commercial sector in data capability. The Middle Class Tax 
Relief and Job Creation Act of 2012 (Pub. L. 112-96)\4\ has allocated 
$7 billion in funding and made new broadband spectrum in the 700-
megahertz (MHz) band available to public safety, setting the foundation 
for a unified system operating on common spectrum bands that will 
foster Nation-wide roaming and interoperability and provide access to 
broadband data, video, mapping, GPS applications, and more.
---------------------------------------------------------------------------
    \4\ Middle Class Tax Relief and Job Creation Act of 2012 (Pub. L. 
112-96)--http://www.gpo.gov/fdsys/pkg/PLAW-112publ96/pdf/PLAW-
112publ96.pdf.
---------------------------------------------------------------------------
    The new Nation-wide public safety broadband network will rely on 
commercial cellular technology. However, the public safety community 
has several unique requirements that are not reflected in current 
broadband technology or the roadmap for future standards development. 
In an effort to identify those gaps in public safety's requirements and 
represent those to international standards bodies, the Public Safety 
Communications Research (PSCR) program \5\--with support and funding 
from DHS S&T--has stood up a 700-MHz public safety broadband 
Demonstration Network at the NIST/National Telecommunications and 
Information Administration (NTIA) laboratory at the Department of 
Commerce's Boulder, Colorado campus, that serves both as a vendor-
neutral environment where public safety, industry, and other 
stakeholders can observe how new broadband technologies can meet public 
safety's unique communication needs as well as a test bed to aid in 
requirements gathering and standards development.
---------------------------------------------------------------------------
    \5\ PSCR is a joint program of the Department of Commerce's NIST/
OLES and NTIA/ITS that provides research, development, testing, and 
evaluation to foster Nation-wide communications interoperability for 
first responders.
---------------------------------------------------------------------------
    Leveraging the expertise of the PSCR staff and the unique assets of 
the Boulder facilities, including NTIA's Table Mountain Radio Test 
Site, PSCR has obtained an experimental spectrum license and has 
deployed an over-the-air broadband network, operating in the 700 MHz 
public safety broadband spectrum. The Demonstration Network has 
successfully acquired 700MHz Band Class 14 LTE broadband equipment--
including eNodeBs, devices, evolved packet cores, and test equipment--
free of charge as part of a Cooperative Research and Development 
Agreement (CRADA) process.
    Research gleaned from Demonstration Network testing and evaluation 
will allow us to understand where current commercial standards meet 
public safety's needs and where there are gaps. The gaps that are 
identified will be incorporated into a standards development strategy.
    Broadband presents a unique opportunity for public safety to define 
their requirements before deployment and only purchase systems that 
conform to the standard. It is crucial that public safety's 
requirements are incorporated into the LTE standard so that Federal 
grant dollars and taxpayer dollars are spent only on equipment that is 
interoperable and allows first responders to better carry out their 
mission of protecting lives and property. PSCR's Demonstration Network 
exists to facilitate this requirements gathering and standards 
development.
Body Armor
    NIST has also been involved in research efforts with other Federal 
agencies such as the National Institute of Justice (NIJ) to develop 
standards related to public safety and criminal justice. One standard 
maintained by NIJ describes how body armor used by first responders 
should perform, and includes methods for testing and evaluating the 
armor. This standard has existed since 1972, and a testing program that 
relies on the standard has been in place since 1978. Nearly every piece 
of body armor worn by police officers in this country complies with the 
NIJ body armor standard.
    An influential piece of legislation was enacted in 1998 that 
accelerated adoption and use of protective body armor by law 
enforcement. The Bulletproof Vest Partnership Grant Act of 1998 
provided matching Federal funds to qualifying local and State agencies 
to make their body armor procurement dollars go farther. Grant 
recipients were required to have mandatory wear policies. As a result 
of this legislation and related grants: (1) Agencies were able to 
afford body armor for all of their officers, and officers were required 
to wear it; and (2) the body armor industry had incentives to continue 
advancing technologies to improve body armor.
    To keep pace with technology advances, standards must continually 
be updated to reflect and encompass technological advancements while 
not inhibiting innovation by being overly prescriptive. Lags in 
updating standards may affect the adoption of newer technologies. New 
technologies may be introduced in advance of standardization. In the 
former case, delays may occur in the widespread deployment of new 
technologies. In the latter case, confidence in the technology or the 
reliability of the equipment utilizing the technology may suffer.
    Consider an incident in 2003 when a police officer's body armor, or 
vest, was perforated by a round it was rated to stop. This incident 
illustrates the importance of ensuring that standards and technologies 
advance together. Until the late 1990s, most body armor worn by police 
officers was made of either aramid (Kevlar or Twaron) or polyethylene 
(Spectra or Dyneema). In this case, the armor was made out of a 
relatively new material, polybenzobisoxazole, or PBO, that was first 
introduced into body armor in 1998. The perforation of this vest in the 
2003 case was the first known field failure in the 30-year history of 
the body armor standards program. In response to this incident, the 
U.S. Attorney General launched a safety initiative to examine soft body 
armor containing the material PBO.
    Until this time, materials in common use had been studied 
previously and the most significant environmental factor affecting 
armor performance--liquid water--was a long-standing part of the 
standard testing protocol. NIST was tasked to undertake a research 
effort to examine PBO and its performance in fielded body armor 
performance and to make recommendations for improvements in the 
standards and testing program. NIST research revealed that PBO degrades 
due to exposure to moisture (humidity in the air or liquid water) as 
well as folding. It was clear that a revised version of the NIJ body 
armor standard that incorporated some measure of resistance to these 
environmental degradation factors was essential for officer safety.
    Beginning in 2005, NIST provided assistance to NIJ to develop a 
revised body armor performance standard to address a number of 
concerns, one of which was the ability of the armor to withstand 
environmental and wear conditions that armor might see over its 
lifetime. NIST developed a soft armor conditioning protocol, through 
which armor is exposed to an environment of elevated temperature, 
humidity, and mechanical tumbling, and then subjected to ballistic 
tests. This protocol has been incorporated into the most recent 
revision of the NIJ body armor standard issued in July 2008 and 
continues to be used in NIJ's body armor Compliance Testing Program.
    Since all officers want body armor that is lighter and more 
comfortable, new materials and new construction methods for body armor 
continue to be introduced into the marketplace. The body armor standard 
must be able to address the safety of new materials, both in initial 
use and over time. The armor conditioning protocol in the NIJ standard 
is an excellent first step in assessing the long-term field performance 
of body armor, but more work needs to be done and is in fact, the 
subject of on-going research at NIST.
First Responder Equipment
    NIST is also creating critical solution-enabling measurement 
science and technical contributions underpinning emerging standards, 
codes, and regulations that are used to improve safety and 
effectiveness of the U.S. fire service. In 2009, the fire service 
responded to over 1.3 million fires \6\ that resulted in 78,000 fire 
fighter injuries and 83 fatalities \7\ with an estimated cost of $8 
billion.\8\ In order to reduce the number of fire fighter fatalities 
and injuries, science-based performance metrics are necessary to 
improve fire fighter safety and enhance fire ground effectiveness. For 
both equipment and tactics, it is critical that performance can be 
measured and evaluated in a scientifically sound manner. The lack of 
adequate measurement science directly impacts the protective equipment 
and tactics utilized by the over 
1 million fire fighters in over 32,000 fire departments in the United 
States.
---------------------------------------------------------------------------
    \6\ Karter, M.J., Fire Loss in the United States During 2009, 
National Fire Protection Association, Quincy, MA, August 2010.
    \7\ Karter, M.J., and Molis, J. L., U.S. Firefighter Injuries--
2009, National Fire Protection Association, Quincy, MA, August 2010.
    \8\ ``The Economic Consequences of Firefighter Injuries and Their 
Prevention,'' NIST GCR 05-874, March 2005.
---------------------------------------------------------------------------
    To respond safely and effectively in hazardous environments, fire 
fighters need access to better technology and equipment. If relevant 
performance data is available for existing equipment or tactics, then a 
meaningful performance metric can be developed, but too often the 
necessary data is not readily available. Lab- and full-scale tests in 
combination with science-based metrics will allow industry to evaluate 
and improve their own products and develop new technology.
    For the past 9 years, NIST has been an active leader and 
participant in developing measurement science for fire service 
technology. Our Fire Research Laboratory has unsurpassed experience in 
fire testing and is a trusted source of unbiased, science-based, 
quantifiable recommendations to standards-developing organizations 
including the National Fire Protection Association (NFPA), ASTM, 
International Organization for Standardization (ISO), and the 
International Code Council (ICC).
    NIST's unique role as a non-regulatory Federal agency, deep 
technical expertise, and unique assets enables industry, academia, and 
Federal entities to work with NIST collaboratively, to the benefit of 
all parties involved. NIST works with local and State fire services, 
manufacturers, the National Institute for Occupational Safety and 
Health (NIOSH) National Personal Protection Technology Laboratory, the 
Fire Protection Research Foundation of NFPA and others in this space.
    In partnership with first responders, NIST identifies and 
prioritizes research needs for the fire service. This process focuses 
NIST's efforts on priorities identified by the fire fighting community. 
The 2005 National Fire Research Agenda Symposium,\9\ which was attended 
by over 50 organizations, including the fire service, manufacturers, 
the International Association of Fire Chiefs, International Association 
of Fire Fighters, National Voluntary Fire Council, DHS, and the U.S. 
Fire Administration (USFA) identified and prioritized research needs 
for fire fighters. Some of the ``urgent and critical issues'' that were 
identified included improved respiratory protection, situational 
awareness technology, tactical decision aids, lessons learned/fire 
reconstructions, and strategies that would reduce injuries and 
fatalities. Over 60 participants at the 2009 NIST Innovative Fire 
Protection Workshop identified tactical decision aids, improved 
respirators, and enhanced turnout gear as high-priority research needs.
---------------------------------------------------------------------------
    \9\ National Research Agenda Symposium Report of the National Fire 
Service Research Agenda Symposium June 1-3, 2005, Emmitsburg, Maryland.
---------------------------------------------------------------------------
            Examples of Fire Fighter Standard Solutions
  <bullet> Self-Contained Breathing Apparatus (SCBA) Lenses: Fire 
        fighters wear protective equipment to protect themselves from 
        exposure to the harsh environment. SCBAs are designed to 
        provide clean breathing air and prevent exposure to toxic 
        combustion gases. NIOSH investigators noticed SCBA thermal 
        degradation issues after the deaths of several fire fighters. 
        NIST partnered with NIOSH to characterize the performance of 
        the SCBA face piece in the fire fighting environment and 
        determined that exposure to high thermal radiant flux caused 
        the viewing lenses to soften, form holes, and fail. With 
        funding from the DHS United States Fire Administration and DHS 
        S&T, NIST studied the conditions that may be encountered by 
        fire fighters and the effects of those conditions on SCBA face 
        piece lenses. This led to recommendations for a new test 
        methodology and performance criteria to the NFPA Technical 
        Committee on Respiratory Protection Equipment which are to be 
        included in the 2013 Edition of NFPA Standard 1981 on Open-
        Circuit Self-Contained Breathing Apparatus (SCBA) for Emergency 
        Services.
  <bullet> Thermal Imaging Cameras: Thermal imaging cameras (TIC) are 
        becoming increasingly valuable tools for first responders; 
        however, there were initially no performance standards that 
        addressed the unique conditions in which first responders 
        operate. Evaluating the performance of thermal imagers requires 
        the resources to characterize the performance of thermal 
        imagers, both in lab- and full-scale experiments and then 
        developing performance metrics and standard testing protocols. 
        NIST developed performance metrics and testing protocols to 
        evaluate and ensure predictable performance of thermal imaging 
        cameras that were incorporated by the NFPA Technical Committee 
        on Electronic Safety Equipment into the 2010 edition of NFPA 
        1801 Standard on Thermal Imagers for the Fire Service. As this 
        standard was put into place, each of the over 32,000 fire 
        departments across the United States gained access to thermal 
        imaging cameras that would perform as expected in the harsh 
        fire conditions.
  <bullet> Personal Alert Safety Systems (PASS): Fire fighters can be 
        overcome by heat or smoke of a fire and may be unable to alert 
        other fire ground personnel to their need for assistance. PASS 
        devices are designed to signal for aid if a fire fighter 
        becomes incapacitated. NIOSH investigators noticed that there 
        was evidence the PASS alarm signal failed to function or was 
        not heard by other personnel in the area. NIST again partnered 
        with NIOSH to characterize the performance of PASS devices in 
        the fire fighters' environment. NIST determined that exposure 
        to high temperature environments typical of what a fire fighter 
        encounters caused the loudness of the PASS alarm signal to be 
        reduced enough to become indistinguishable from background 
        noise on the emergency scene. As the PASS cooled, the alarm 
        signal on most of the units returned to pre-exposure sound 
        levels. NIST researchers, supported by DHS S&T, developed a new 
        high temperature functionality requirement and test protocol 
        for inclusion in the 2007 edition of NFPA 1982 Standard on 
        Personal Alert Safety Systems (PASS), a lifesaving improvement 
        for each of the 1.25 million fire fighters whose PASS devices 
        were upgraded.
                               conclusion
    NIST continues its pursuit of measurement science to improve test 
methods and standards for advancing innovation for products used by 
everyone in the first responder community. NIST, in conjunction with 
other Federal agencies, is focusing on developing test methods in a 
number of areas, ranging from telecommunications interoperability to 
determining the performance of Radio Frequency Identification (RFID) 
and fire fighter locator systems, fire fighter radios, and fire fighter 
protective clothing in rough-duty environments. NIST has other 
activities focused on specific environments of interest in which the 
first responder community operates, such as guidance on non-traditional 
means to mitigate the fire hazard due to ventilation and suppression 
activities within structures in a manner that provides optimum safety 
and effectiveness for the fire fighter; and development of improved 
standards and building codes through simulations and experiments on 
structural vulnerabilities to wildland-urban interface (WUI) fires.
    Mr. Chairman, thank you again for the opportunity to testify today. 
I would be happy to answer any questions the subcommittees may have.

    Mr. Bilirakis. Thank you, Ms. Saunders. Chief, you are 
recognized now for 5 minutes.

STATEMENT OF EDWARD KILDUFF, CHIEF OF DEPARTMENT, NEW YORK CITY 
              FIRE DEPARTMENT, NEW YORK, NEW YORK

    Chief Kilduff. Good morning, Chairman Bilirakis, Ranking 
Members Richardson and Clarke, and all subcommittee Members 
that are here. Thank you for the opportunity to speak with you 
today about the New York City Fire Department's homeland 
security technology efforts, our initiatives, and our 
innovations.
    New York City remains a primary target for terrorists, due 
to its size, economic importance, complex infrastructure, and 
symbolic status. During the more than 10\1/2\ years since 
September 11, the Fire Department has made significant progress 
in preparing for future terrorist threats and natural disasters 
by increasing our capabilities and expanding our capacity to 
search for any significant event that threatens the lives of 
New Yorkers.
    The most critical partners in supporting these initiatives, 
which are discussed in greater detail in our written submission 
to the subcommittees, are the Federal Department of Homeland 
Security and Congress. Since its inception almost a decade ago, 
DHS has recognized FDNY's unique role in protecting New York 
City and has awarded the Department more than $400 million to 
enhance our capacity to respond to terrorism. This funding has 
enabled the FDNY to provide specialized training and resources 
for our hazmat and rescue teams to improve internal and 
interoperable communications, and to provide commanders with 
better on-scene information and situational awareness.
    We also use DHS grants to fund firehouse-based computerized 
training kiosks. Many of the drills and exercises provide all 
field units with tactical training for real-life incidents, 
such as bus bombings, subway attacks, incidents in the harbor, 
and all-hazards events.
    With the limited time I have, I want to try to demonstrate 
to the subcommittee Members how DHS funding has been invested 
wisely in the FDNY, which works for the benefit of New York 
City, the New York Metropolitan area, the region, and all first 
responders. That investment has been made in each and every one 
of our 11,000 fire fighters and fire officers and 3,200 EMS 
members, who every day use the funded technology equipment, 
tools, and training to help save lives and increase the safety 
of the public and our first responders.
    Imagine the scene of a large-scale or complex incident. As 
our first responders arrive, the incident command system and 
our tiered response matrix have already determined the roles 
that each member will play upon their initial arrival on the 
scene and as the incident escalates. At their disposal is an 
improved, three-part fire ground communication system, 
consisting of vehicle-based cross-band repeaters, high-powered 
portable command post radios, and handy talkie radios with 
customized channels.
    Our members are equipped with improved gear in the form of 
radiological detectors and safer chemical protective clothing. 
They are supported on scene by mobile command vehicles, 
helicopter video feeds, new generation Marine response craft, 
and electronic command boards for control and tracking of 
resources. Leading these efforts are ICS-trained center 
commanders assisted by specialized squads and rescue companies, 
tactical support units, and haz-tech ambulances.
    At the same time, our department leaders operate out of our 
state-of-the-art fire department operation center based in our 
Brooklyn headquarters. From this operational nerve center, 
commanders can oversee operations at the scene and exchange 
information with regional partners, while keeping a close eye 
on events unfolding in the rest of the city.
    Throughout our operations, we utilize the electronic fire 
ground accountability system to facilitate on-scene 
accountability of first responders. From the scene, we can 
share voice, video, and data communications in real time with 
law enforcement, regional and mutual aid partners, city and 
State agencies, DHS, and other Homeland Security partners. As 
this scenario shows, FDNY has the resources and training to 
respond to a myriad of complex incidents. DHS funding has 
helped our first responders, the boots on the ground, 
immeasurably.
    There is much more to be done, however. With DHS and its 
Science and Technology Directorate as our partner, we are 
confident that we will continue to find innovative solutions to 
address our on-going needs. We support the efforts of the S&T 
Directorate to create economies of scale by developing 
solutions that help the fire service and first responders 
Nation-wide. Due to anticipated reductions in grant funding 
going forward, this is not only practical, it is imperative.
    Two areas where we think this is particularly critical for 
first responders are standards and testing and network command. 
Most fire departments throughout the country lack the resources 
to establish standards and test equipment themselves, 
especially in light of ever-increasing changes in technology. 
The S&T Directorate is uniquely situated to take the lead in 
the testing and development of National standards that we need 
for, among other things, CBRNE detection and mitigation 
equipment. We support, benefit from, and urge continued funding 
for these efforts.
    Network commands, where commanders are linked to real-time 
data on desktop computers and mobile devices or via their 
operation centers, remain an unmet need. However, the S&T 
Directorate is piloting the Next-Generation Incident Command 
System, or NICS, a geo-special tool that can integrate data 
from diverse agencies and allows first responders to have a 
common operating platform.
    The FDNY supports the S&T Directorate's efforts to develop 
this important tool for first responders. In fact, the FDNY 
recently tested NICS in a simulated hurricane exercise that we 
designed for West Point cadets involving the management of 
National Guard resources. With regard to DHS grant funding for 
the FDNY, we understand that DHS' focus will be on providing 
sufficient funding so that we can sustain our current 
capabilities, maintain the equipment and resources that we 
currently have, and support us as we continue to utilize our 
strengths and assets to protect the New York region.
    As mentioned in the subcommittee testimony in more detail, 
we do have some concerns about the proposed changes for fiscal 
year 2013 Homeland Security Grant Cycle. First and foremost, we 
urge that funding be targeted to those areas at most risk for 
terrorism. Another concern is the compressed time frames 
proposed for Homeland Security grants that removes the 
flexibility we need to develop the complex systems and assets 
we require.
    It is important that the technological advancements I have 
described can potentially become part of a Nation-wide 
integrated system of response that benefits first responders in 
every jurisdiction.
    I thank you for allowing us to testify today and look 
forward to answering the committee's questions.
    [The statement of Chief Kilduff follows:]
                  Prepared Statement of Edward Kilduff
                              May 9, 2012
    Good morning, Chairmen Bilirakis and Lungren, Ranking Members 
Richardson and Clarke, and Members of the subcommittees. My name is 
Edward Kilduff and I am chief of department for the New York City Fire 
Department.
    Thank you for the opportunity to speak with you today about the New 
York City Fire Department's homeland security technology efforts, 
innovations, and initiatives.
    New York City remains a primary target for terrorists due to its 
size, economic importance, complex infrastructure, and symbolic status. 
During the more than 10\1/2\ years since 9/11, the Fire Department has 
made significant progress in preparing for future terrorist threats by 
increasing our capabilities and expanding our capacity to surge for any 
significant event that threatens the lives of New Yorkers. The most 
critical partner in supporting these initiatives--which I will discuss 
in more detail--is the Federal Department of Homeland Security (DHS), 
with the support of Congress.
                department of homeland security funding
    Since its inception almost a decade ago, DHS has recognized the 
FDNY's unique role in protecting New York City, and has awarded the 
Department more than $400 million to enhance our capacity to respond to 
terrorism.
    This funding has enabled the FDNY to provide specialized training 
and resources for our HazMat and Rescue teams, to improve interoperable 
communications and to provide commanders with better on-scene 
information and situational awareness. We also use DHS grants to fund 
many of the drills and exercises that provide all field units with 
practical training for real-life incidents such as bus bombings, subway 
attacks, incidents in the harbor, and all-hazards events.
    Looking forward, we understand that DHS's focus will be on 
providing sufficient funding so that we can sustain current 
capabilities, maintain the equipment and resources that we have, and 
support us as we continue to develop new-generation resources to 
protect the region's critical infrastructure.
                      initiatives and enhancements
    In preparation for this hearing, we reviewed our homeland security 
initiatives and hoped to highlight in this testimony those that 
involved some technological component. Technology is an integral part 
of all of our initiatives--from our state-of-the-art new fireboats to 
all methods of field communications to our drills and training. So, 
with that in mind, allow me to briefly describe some of our highest-
priority preparedness accomplishments.
Special Operations Command
    The FDNY has rebuilt and significantly enhanced our Special 
Operations Command (SOC) capabilities, so that we are more prepared 
than ever to deal with incidents involving biological, chemical, or 
radioactive releases, and other major incidents with mass-casualty 
potential.
    The underpinning of these enhancements is the ``tiered response'' 
system that we established to ensure the optimal availability and 
distribution of response resources. This tiered-response framework 
entails training FDNY units in a variety of response capabilities at 
incremental proficiency levels and strategically locating those units 
across the city. In addition to Hazardous Materials (HazMat) 
capabilities, this matrix maximizes the FDNY's capabilities to respond 
to any large-scale incident in a manner that is highly effective, 
economically efficient, and sustainable over the long term.
    SOC includes five Rescue Companies, seven Squad Companies, our 
highly specialized HazMat Unit and the Marine Division consisting of 
three year-round and three seasonal Marine Companies. Rescue and Squad 
Company members receive the highest levels of training the Department 
offers in technical rescue and victim-removal--more than 280 hours of 
specialized rescue training in collapse response and rescue operations. 
All five Rescue Companies are SCUBA-qualified. All Rescue and Squad 
Companies have advanced hydraulic and search equipment for operating at 
building collapses and are trained and equipped for high-angle rescues.
    All Fire and EMS personnel have received training to the HazMat 
Operations level.
    To augment and support our SOC response, we can deploy:
  <bullet> 25 SOC Support Ladder Companies, which are capable of 
        providing personnel and equipment to support search-and-rescue 
        operations;
  <bullet> Four HazTech Engine Companies, whose members receive 80 
        hours of HazMat training;
  <bullet> 35 HazTac Ambulance Units, whose vehicles are equipped to 
        provide medical care in a HazMat environment;
  <bullet> Two new state-of-the-art 140-foot fireboats, specially 
        equipped with radiological detection capability, that can 
        respond to chemical, biological, radiological, and nuclear 
        (CBRN) incidents anywhere on or near the water;
  <bullet> One new 65-foot state-of-the-art fast-response boat (with 
        one on the way) with CBRN protection and radiological detection 
        capability, three 33-foot fast-response rescue boats (with 
        seven more on order), and one 31-foot medical response boat 
        (with two more on order);
  <bullet> One Decon, one SCUBA, and two Tactical Support Units and one 
        De-watering Unit;
  <bullet> A Re-breather Unit that allows us to operate for prolonged 
        periods in hazardous environments;
  <bullet> 29 Chemical Protection Clothing units; and
  <bullet> Ten Rescue Medic Ambulances.
Organizational and Communications Infrastructure
    Of course, enhanced capabilities are only one component of our 
preparedness goals. The FDNY has also taken steps to improve our 
organizational and communications infrastructures as well. The FDNY 
has:
  <bullet> Expanded training in the Incident Command System for all 
        Fire and EMS personnel;
  <bullet> Developed a fully-staffed Incident Management Team (IMT), 
        which was dispatched to New Orleans after Hurricanes Katrina 
        and Gustav, and to Broome County, New York this past fall after 
        Hurricane Irene;
  <bullet> Launched an automated recall program that can target off-
        duty members to ensure resources are available to maintain 
        coverage throughout the city during any emergency;
  <bullet> Implemented a communications channel between on-scene fire 
        fighters and the EMS command;
  <bullet> Implemented a second EMS city-wide channel for Multiple 
        Casualty Incidents;
  <bullet> Established links to the MTA repeater systems to facilitate 
        communications in the subways and tunnels;
  <bullet> Designed and purchased two state-of-the-art Mobile Command 
        Vehicles and an IMT/Planning Vehicle to assist in response 
        coordination and communications;
  <bullet> Finalized all-hazards emergency response plans for 
        responding to terrorist threats and natural disasters;
  <bullet> Developed an internal risk assessment website for priority 
        locations;
  <bullet> Assigned a fire officer, beginning in July 2012, to the 
        National Counter Terrorism Center in McLean, Virginia;
  <bullet> Established a connection to the U.S. intelligence community 
        via the Homeland Security Data Network and Intelink, secret-
        level networks that link to finished intelligence to aid our 
        overall readiness to meet the consequences of a terrorist 
        attack;
  <bullet> Enhanced our Bureau of Fire Investigation intelligence 
        capabilities, including the assignment of Fire Marshals to the 
        Joint Terrorism Task Force, the acquisition of top-secret 
        clearance for National intelligence, the creation of a 24-hour 
        hotline for FDNY members to report suspicious activity, and 
        target hardening and protection of FDNY's critical 
        infrastructure; and
  <bullet> Established the Center for Terrorism and Disaster 
        Preparedness to coordinate our counterterrorism planning and 
        strategy.
    The FDNY has also successfully deployed a three-part field 
communication system that represents a critical step in improved 
fireground communications. The system--designed and built in-house--
consists of 13 vehicle-based, cross-band repeaters, which allow radio 
signals to be transmitted into dense building environments; 75 high-
powered portable command post radios; and handie-talkie radios with 
several customized features that have improved on-scene tactical and 
command communications and fire fighter safety. These radios also 
provide us with full interoperability--the ability to speak with other 
city agencies and our mutual aid partners--helping to protect all first 
responders.
    The FDNY has made important strides in strengthening EMS 
communications by adding a second city-wide radio channel. This 
additional EMS channel eliminates the overlapping frequencies between 
our command and city-wide channels, enhances the capability of EMS 
command at the scene of multiple incidents and allows for better 
utilization of frequency allocations for EMS Chiefs.
Technology and Network Command
    As circumstances evolve at a disaster, a critical challenge is to 
ensure situational awareness for optimal incident management. This 
would include forming networks of voice, video, and data among multiple 
groups of emergency responders, Government agencies, and non-Government 
organizations--at the incident scene and at emergency operations 
centers away from the scene. The FDNY has leveraged our technology to 
create a common operational picture and interoperable networks for 
coordination and unified command.
    To that end, we have implemented many long-term technology 
initiatives, which include:
  <bullet> Building a state-of-the-art Fire Department Operations 
        Center (FDOC), an operational nerve center at our 9 MetroTech 
        headquarters that is fully activated for use by senior Chiefs 
        in the event of serious fires and other large-scale incidents;
  <bullet> Developing an enhanced real-time deployment and siting model 
        for the Department; and
  <bullet> Piloting wireless Electronic Command Boards for better on-
        scene command, control, and tracking of resources.
    The FDNY also supports the efforts of the DHS Science & Technology 
Directorate to develop an integrated situational awareness platform for 
first responders called the ``Next-Generation Incident Command System'' 
or NICS. NICS is a geospatial tool that can integrate data from diverse 
agencies and allow first responders to have a common operating picture.
    We understand that DHS is working with MIT's Lincoln Laboratory to 
pilot NICS and that NICS is currently supporting the integrated 
operations of California first responders, led by the California 
Department of Forestry and Fire Protection, or Cal Fire. The FDNY 
recently tested NICS in a simulated hurricane exercise that we designed 
for West Point Cadets involving the management of National Guard 
resources.
Virtual Training
    Over the past year, with help from DHS, the FDNY created and 
introduced its kiosk e-learning platform in all FDNY firehouses and EMS 
stations. The computer-based training enables us to deliver training 
and situational awareness information to the field faster and more 
efficiently than ever before. Keeping our 15,000 fire fighters and EMTs 
trained and refreshed is a crucial--and costly--part of our mandate as 
we address the complexities of the post-9/11 environment. Using real-
time, video-rich content captures the attention of our members and 
encourages on-going learning. Among its benefits are:
  <bullet> Company officers use kiosk content to structure drills and 
        education in the firehouse; and
  <bullet> Our FDOC can push out situational awareness to members about 
        in-progress events where they might be called to respond.
    FDNY has the most comprehensive fire fighter training program in 
the country, consisting of classroom learning, hands-on skills 
development and training in state-of-the-art simulated environments 
including a high-rise building, subway cars and tunnels. We know that 
e-learning will never fully replace classroom or practical skills 
training, but it has become an important component of the training 
cycle we provide for our members. Fire departments from around the 
country are interested in leveraging our e-training content. This 
information sharing is a core value of the FDNY, and we are evaluating 
the feasibility of offering our kiosk training to other departments.
           the center for terrorism and disaster preparedness
    Making consistent progress on the wide array of initiatives I have 
just described requires careful planning. We created the Center for 
Terrorism and Disaster Preparedness (CTDP) in 2004 to be the focal 
point for the Department's strategic preparedness, providing the 
Department with the necessary intelligence to make critical decisions 
in dangerous environments beyond more routine responses.
    The Center's activities bring together our own members' varied 
expertise to create a dynamic and practical approach to 
counterterrorism, disaster response, and consequence management. CTDP 
bridges the divide between the established intelligence community and 
non-traditional intelligence consumers and producers, such as the fire 
service.
    CTDP has also helped develop new technologies such as the 
Electronic Command Board (ECB), which I mentioned earlier. The 
Department piloted the ECB and its hand-held, tablet-style Command Pad 
this past spring. ECB is used to account for deployed units and will be 
connected to FDOC to send digital blueprints and other building 
information to the fireground. It can also be used in subway 
emergencies to provide Incident Commanders with information on tunnels 
and emergency exits. It will also receive mayday signals from 
Electronic Fireground Accountability System.
    One of the functions of CTDP is to develop tabletop and full-scale 
exercises to test procedures and core capabilities of the Department. 
Continual training exercises better prepares our first responders to 
use technology at routine and major events.
                    future preparedness enhancements
    Building on the achievements I have just listed, we set an 
ambitious agenda for future preparedness enhancements.
    One significant development is the implementation of the Electronic 
Fireground Accountability System (EFAS), just mentioned. The EFAS pilot 
was launched in December 2010 to improve the on-scene accountability of 
members at fires and other emergencies, including large-scale high-rise 
or subway incidents. With EFAS, an officer's laptop identifies and 
assigns a position for all fire company members. Now fully integrated, 
EFAS will monitor handie-talkie transmissions and mayday alerts and 
allow the Incident Commander to perform an Electronic Roll Call.
Grants
    In the area of Federal grants in general, we do have some concerns 
going forward. We know that FEMA plans sweeping changes for the fiscal 
year 2013 Homeland Security grant cycle. First and foremost, the Urban 
Areas Security Initiative needs to be preserved as a stand-alone 
program that is well-funded and targets assistance to those areas 
identified as most at-risk for terrorism.
    With funding expected to decrease Nation-wide, it is more 
imperative than ever that FEMA direct funds based on where intelligence 
and threat analysis tell us they are most needed. Now is not the time 
to cut funding to New York City, which remains the No. 1 high-value 
target for terrorists.
    We are also concerned about the compressed time lines being 
instituted for homeland security grants. The proposed 24-month grant 
cycle, with very limited exceptions, is short-sighted. Some of the 
FDNY's most successful and powerful DHS-funded assets, such as our 
fireboats and our FDOC, took years to build and implement. We need 
flexibility so that we can continue to develop the complex systems and 
assets that, although they may have relatively long time lines for 
implementation, have equally far-reaching and impactful results.
    Our goal is not to spend funds quickly, but to use Federal 
resources efficiently and well to advance preparedness for New York 
City and the Nation. We will continue to encourage DHS to be flexible 
and work with us to achieve that mission.
                         significant responses
    Last, I would like to mention two key incidents from the last few 
years where many of the technological advancements I have just 
described came into play, with great outcomes: Flight 1549's emergency 
landing in the Hudson River in January 2009, and the May 2010 terrorist 
incident in Times Square.
    Flight 1549's landing is a noteworthy example of networked command 
in action: The FDNY Fire and EMS Operations, the NYPD, and the U.S. 
Coast Guard all worked together, connecting at the scene through a 
unified command structure under the National Incident Management (NIMS) 
protocol. We were able to connect back to the FDOC at headquarters 
while the Fire Marshals connected with LaGuardia Operations to obtain 
the flight manifest. EMS connected with the broader EMS system--
including hospitals in New Jersey--to track all of the transported 
patients. Ultimately, the FDNY was able to confirm that all the 
passengers were accounted for. We then posted this information on the 
Homeland Security Information Network, which was shared with our 
partner agencies, and ultimately that good news made its way to the 
Situation Room at the White House. In sum, we had to hastily form an 
effective, new-generation network where human and technological 
networks played a key role in instant information sharing and analysis.
    In May 2010, Faisal Shazad attempted to detonate a car bomb in 
Times Square. Engine 54 and Ladder 4--companies that lost their entire 
crews on 9/11--were called to the scene for a car fire. Before 9/11, a 
fire officer's first instinct may have been to get up close to the car 
and use water to extinguish the fire. But these first responders 
recognized that this was no ordinary car fire. And, because of their 
increased situational awareness and dedicated training, they 
immediately realized that they had a potential terrorist threat on 
their hands. They knew exactly what to do: They started clearing the 
area and called the NYPD bomb squad. They also knew what NOT to do: 
They did not disrupt the vehicle and did not attempt to put out the 
fire. Their actions kept bystanders safe and also preserved crucial 
evidence that lead to a quick capture of the suspect.
    I am proud of our members' critical role in these two incidents, 
but the truth is we respond to incidents on a daily basis that require 
a ``new-generation'' response. While our rebuilding is never finished, 
I can say without equivocation that this Department is better prepared, 
equipped, and trained and more capable than ever before.
                               conclusion
    In conclusion, to quote New York City's Fire Commissioner, 
Salvatore Cassano, ``the greatest way to honor those we lost on 9/11 is 
to make sure that we are prepared for the next event.'' We are prepared 
for the next event, and the process of continuing these preparedness 
efforts carries on. Our partnership with DHS and the support of the 
Members of Congress have been absolutely critical to these efforts. 
Importantly, all of the technological advancements I have described can 
potentially become part of a Nation-wide, integrated system of response 
information that benefits first responders in every jurisdiction in the 
country.
    I would be happy to answer any questions you may have.

    Mr. Bilirakis. Thank you, Chief. Ms. Doying, you are 
recognized for 5 minutes.

  STATEMENT OF ANNETTE DOYING, DIRECTOR, OFFICE OF EMERGENCY 
               MANAGEMENT, PASCO COUNTY, FLORIDA

    Ms. Doying. Chairman Bilirakis, Ranking Members Richardson 
and Clarke, other Members of the subcommittee, I appreciate you 
allowing me to testify here today before you on your first 
responder technologies hearing. The subject matter, trying to 
accomplish a prioritized ranking scheme for funding, resonates 
very directly with me and I hope that my testimony assists you 
with that today.
    When I first came on board to work as the Homeland Security 
Coordinator in Pasco County, Florida, science and technology 
was a DHS element that I was quite excited about. Over the 
course of more than 6 years, I taught approximately 4,000 first 
responders Homeland Security-related concepts of operation.
    I would tell the students a story that started something 
like this. Do you remember the fellow who died of anthrax 
exposure in October 2001? He worked at the National Inquirer 
building in Palm Beach County. I want you to imagine that you 
are the local hazmat responder and you have been asked to enter 
that building, find, contain, and remove the anthrax from that 
building. As you don your low-bid SCBA, as you don your low-bid 
protective ensemble, and as you strap on your low-bid 
protective device, how do you feel about being the guy going in 
that building?
    I would go on to talk in these classes about how the DHS 
Science and Technology Directorate was intended in part to 
bring cutting-edge technology being developed in private sector 
and university R&D labs to those agencies that have 
responsibility for responding to WMD CBRNE events. I shared my 
opinion that the future held for us the idea that the choice of 
low-bid-only equipment would be countered by the science behind 
the why we need this device or equipment justification. I held 
out hope that our local hazardous materials responders would 
don TPE and use devices that would be of a proven quality, 
proven to Government through Government, instead of by a 
corporate salesman who we can't point to and swear that he has 
our best interests in mind.
    Today, I hesitate to share that message, because my 
observations of how science and technology has trickled down to 
local communities shows me some disparities between what I had 
hoped for and what is. An example I offer is a very limited 
local perspective on the work of the domestic nuclear detection 
office. This program seems to have worked diligently to ensure 
that communities are protected from a radiological or a nuclear 
incident. As a result, local law enforcement officers have been 
recipients of personal radiation detector devices and hospital 
entryways are outfitted with NC2 detectors. But not enough law 
enforcement officers have these devices. Certainly, the first-
in officer doesn't have one.
    For those hospitals that have these devices, not enough 
integrated planning with local health departments and first 
responders has been accomplished. At the local level, there is 
little understanding of how to access technical reach-back 
capabilities to support an incident of this type, and so there 
will be losses.
    The consolidation by the Science and Technology Directorate 
of the multiple standards that apply to Homeland Security is a 
successful and useful effort. NFPA 1981 and NFPA 1994 standards 
of self-contained breathing apparatus and protective ensembles 
are key and critical components of a Nation-wide homeland 
security program. Their focus on protection of first responders 
is of an importance that is well understood by all of us here 
today. Continued focus on modernizing these standards, 
promoting the use of emerging technologies and support of the 
response community, and leveraging the knowledge found in R&D 
labs is our first line of defense for local responders.
    In the last 10 years, I have seen a significant amount of 
confusion about where homeland security funds should be spent. 
I have heard the arguments that ask how equipment fits into the 
context of capability building and risk reduction. Equipment, 
the right equipment, well trained on, is an important tool for 
the first responder.
    I have observed the gains made within the area of training 
for the National Domestic Preparedness Consortium facilities. I 
find that resident training at these facilities is more 
effective than attempts to provide the same training within 
local communities. A significant effort to promote first 
responder participation and educate local communities about the 
value of this training would further the agenda that asks us to 
standardize our approach towards emergency response.
    There is considerable logic for concentrating funding in 
high-risk communities. However, the designation of 
jurisdictions-specific specialty team means that single 
jurisdictions have been well-equipped and trained with the use 
of homeland security funds. For those of us serving on the 
fringe of those high-risk communities, this funding methodology 
has produced some sense of detachment to the homeland security 
mission. There should be a more networked approach to 
capability building, one that disregards jurisdiction, supports 
multi-agency response, and acknowledges that it is through 
mutual aid that all disasters are best served.
    In nearly all of the communities that surround me, I see 
emergency managers, fire fighters, and law enforcement officers 
struggling with Homeland Security as an ``other duty as 
assigned.'' For the local first response community, this is a 
deficit. You should know that without dedicated Homeland 
Security personnel at the local level, much of the work being 
done on a National scale is hidden from view and, therefore, 
largely disregarded.
    Thank you for offering me the time to speak to you today.
    [The statement of Ms. Doying follows:]
                  Prepared Statement of Annette Doying
                              May 9, 2012
    Members of the committee, thank you for the invitation to testify 
today in your joint hearing on first responder technologies. Your focus 
on ensuring a prioritized approach for Homeland Security Research and 
Development resonates with me and I hope that my testimony assists you 
towards that end.
    I realize that this committee has probably seen some very tangible 
work accomplished by the universities and private sector institutes 
funded through the Science and Technology Directorate. Through 
conversations with my new-hires, guys who worked CBRNE in the Air Force 
and Army up until a few months ago, I understand that the Department of 
Defense saw an increase in the quality and quantity of Personal 
Protective Equipment and response equipment over the last 10 years. 
They also experienced strengthened relationships with Research & 
Development entities and labs that support testing and analysis. I also 
know that the placement of the very competent and well-equipped WMD-
CSTs (civilian support teams) in local communities was a positive 
forward movement in support of local response. The experiences of 
Federal representatives working with and within the S&T Directorate, 
members of the military, and the faculty at funded universities and 
staff of National labs is not the experience of local responders. My 
perspective is limited to the outcomes of homeland security initiatives 
at the local level.
    In the realm of emergency preparedness gains have been made within 
the area of training through the National Domestic Preparedness 
Consortium facilities like the Center for Domestic Preparedness at Ft. 
McClellan in Anniston, AL, the Energetic Materials Research and Testing 
Center at New Mexico Tech, the National Center for Biomedical Research 
and Training at Louisiana State University, and the Texas Engineering 
Extension Service. This training has become a cornerstone of common 
knowledge building for the local response community. I've seen the 
consortium grow and I've watched as more and more local folk become 
aware of the training opportunities offered through it. I've personally 
put SHSGP funds to good use to support training of local responders 
through the consortium and I've seen other local governments do the 
same. I find that resident training at these facilities is more 
effective than attempts to provide the same training through mobile 
delivery within local communities. Support for local responders to 
attend training at Consortium facilities should be the emphasis for 
future capability building. A significant effort to promoting 
participation and educate local communities about the value of this 
training would further the agenda that asks us to standardize our 
approach towards emergency response. Careful oversight that focuses on 
the quality of instruction and gauging the depth of knowledge built 
through consortium training will help justify the need to have local 
responders leave their own communities for this training.
    A few weeks ago, Sheriff Chris Nocco, Pasco County, Florida 
provided testimony before this or a similar body. Sheriff Nocco spoke 
about a number of things but I would like to speak to one of these as 
well. The Sheriff conveyed his understanding of State and Federal 
designation of regional specialty response teams and his concerns about 
the use of these teams in a community which must then rely on the 
skills and equipment of those teams. Designation of a regional team 
really means that single jurisdictions ``own'' a team that will be 
eligible for Federal homeland security planning, training, exercise, 
and equipment funds. There is considerable logic for concentrating 
funding in high-risk communities and expecting that those communities 
build a capability for managing those risks. However, for those of us 
living in and serving communities on the fringe of those high-risk 
communities this funding methodology has produced some sense of 
detachment to the homeland security mission. If you aren't empowered to 
make decisions about the application of homeland security funds, then 
how do you contribute to the mission? Further, the expectation that 
those specialty teams will serve outlying communities through mutual 
aid is reasonable, but this approach to building capability fails to 
recognize that mutual aid works in two directions. There should be a 
more networked approach to capability building; one that disregards 
jurisdiction, supports multi-agency response, and acknowledges that it 
is through mutual aid that all disasters are best served.
    At the State and local level I've seen a significant amount of 
confusion about where local State Homeland Security Grant Program funds 
set aside for planning, training, and exercise should and could be 
spent. I've understood the struggles and arguments that local, 
regional, State, and Federal players have when trying to determine how 
equipment fits into the context of capability building and risk 
reduction. We've all felt the consternation over the debate about 
sustainment funding for equipment upkeep. I, and my community, have 
been fortunate in that from 2005 until 2011 I filled a Homeland 
Security Coordinator position created by my local jurisdiction and 
initially funded through the State Homeland Security Grant Program 
(SSGP). This obligation of funds towards a dedicated full-time 
emergency manager focused on local implementation of homeland security 
initiatives is what enabled my understanding of the things I'm speaking 
to you about today. But in nearly all of the communities that surround 
me, I look and don't see a counterpart. Instead, I see emergency 
managers, fire fighters, and law enforcement officers struggling with 
an other-duty, as-assigned. For the local first response community, 
this is a deficit. Without dedicated homeland security personnel at the 
local level, much of the work being done on a National scale is hidden 
from view and, therefore, largely disregarded.
    The consolidation, by the Science and Technology Directorate, of 
the multiple standards that apply to homeland security is a successful 
and useful effort. NFPA 1600: Standard on Disaster/Emergency Management 
and Business Continuity Programs should be well understood and 
implemented by local government. Beyond the standard, however, there 
should be stronger mechanisms for ensuring that disasters are well 
managed, business can continue, and local civil servants know their 
role. Other standards, such as NFPA 1981, Standard on Open-Circuit 
Self-Contained Breathing Apparatus (SCBA) for Emergency Services which 
requires all SCBA gear to adhere to certifications that provide 
respiratory protection against chemical, biological, radiological, and 
nuclear attacks and NFPA 1994, which specifies the minimum requirements 
for protective ensembles for fire and emergency services personnel 
operating at domestic terrorism incidents (chemical/biological) are key 
and critical components of a Nation-wide homeland security program. 
Their focus on the protection of first responders is of an importance 
that is well understood by all of us here today. Continued focus on 
modernizing these standards, promoting the use of emerging technologies 
in support of the response community, and leveraging the knowledge 
found in research and development labs in the private sector and 
universities is our first line of defense for our local responders.
    When I first came on board to work homeland security in Pasco 
County, Florida, this was a DHS element that I was quite excited about. 
Over the course of more than 6 years, I taught approximately 4,000 
local first-responders homeland security related concepts of operation. 
I would always tell a story that started something like this: ``Do you 
all remember the fellow who died from Anthrax exposure in Palm Beach 
County in October 2001--he worked at the National Enquirer building? 
Well, imagine that you are the hazmat responder from local government 
who is asked to go into that building, find (detect) the anthrax, 
collect and package it, and transport it out of the building. As you 
don your low-bid SCBA and your low-bid protective suit, and you strap 
the low-bid detection device around you, how do you feel about being 
the guy going in?''
    I would go on to talk about how the DHS Science and Technology 
Directorate was intended, in part, to bring cutting-edge technology 
being developed in R&D labs in the private sector and in the great 
universities across our Nation to those agencies inside of government 
that have responsibility for responding to WMD/CBRNE events. I shared 
my opinion that the future held for us the idea that the choice of low-
bid only would be countered by the science behind the why-we-need-THIS 
device/equipment/supplies justification. I would go on to state that I 
held out hope that our local hazardous materials responder would don 
PPE and use devices that would be of a proven quality--proven TO 
Government THROUGH Government instead of by a corporate salesman who we 
can't point to and swear that he has our best interests in mind.
    Today, I hesitate to share that message because my observation of 
how science and technology has trickled down to local communities shows 
me some disparities between what I had hoped for and what is. In 
example, I offer a limited local perspective on the work of the 
Domestic Nuclear Detection Office (DNDO). This program seems to have 
worked diligently to ensure that communities are protected from a 
radiological/nuclear incident. As a result, local law enforcement 
officers have been the recipients of personal radiation detector 
devices and hospital entryways are outfitted with in situ detection 
devices. But, not enough law enforcement officers have these devices. 
Certainly, the first-in officer doesn't have one. Not enough hospitals 
have these devices and for those that do, not enough integrated 
planning with local health departments and first responders has been 
accomplished. At the local level, there is little to no understanding 
of how to access technical reachback capabilities. And so there will be 
losses if we find ourselves responding to a radiological or nuclear 
incident. I could offer other examples of how a good program hasn't 
gone far enough to reach local communities.
    Outside of the purview of domestic security, other hazards exist. 
Recently, the National Emergency Management Association (NEMA) 
articulated its position on the National Hurricane Program to the 
Federal Emergency Management Agency. I'm familiar with their 
recommendations and wanted to take this opportunity to communicate my 
support of a few of their key concepts as it relates to Emergency 
Preparedness. NEMA suggests that the FEMA and the U.S. Army Corps of 
Engineers conduct an analysis of government user's needs to ensure that 
the software application HURREVAC remains the best tool for use by 
emergency managers in their evacuation decision making. This 
recommendation asks that these agencies consider current and emerging 
technologies and the resource requirements for maintaining and 
modernizing HURREVAC. This is a reasonable request and reflects the 
customer-service-oriented approach that should be the underpinnings of 
any emergency preparedness work. NEMA also shared their recommendations 
related to a continued focus on private sector outreach and the need to 
focus efforts on sharing FEMA products with the private sector. This is 
a balanced and reasonable recommendation and is conducive to efforts 
being made within local and State governments. Finally, NEMA's 
recommendation related to leveraging academic institutions applies not 
only to hurricane preparedness but to the entire realm of emergency 
preparedness. Federal support for building collaboration between local 
communities can promote the application of education and experience to 
disaster management in all phases.
    Thank you for providing me with the opportunity to share the local 
perspective on first responder technologies. Your focus on a 
prioritized approach to homeland security research and development is 
strongly appreciated by the citizens and civil servants of our great 
Nation. I personally appreciate the effort you are making here today on 
behalf of Pasco County's first responders and all of the dedicated 
first responders who serve in times of disaster.

    Mr. Bilirakis. Thank you, Ms. Doying. Ms. Coon, you are 
recognized to testify for 5 minutes.

  STATEMENT OF KIERSTEN TODT COON, PRESIDENT AND CEO, LIBERTY 
                         GROUP VENTURES

    Ms. Coon. Thank you. Good morning. Good morning, Chairman 
Bilirakis, Ranking Members Richardson and Clarke, and Members 
of the subcommittee. Thank you for allowing me to testify in 
front of you today.
    As you have heard about, I think the most relevant 
component to it is that I served on the Senate Committee on 
Governmental Affairs after 9/11 and was part of the team that 
drafted the Science and Technology Directorate. I have spent 
most of my career in public service. In the private sector, I 
continue to do that by working with strictly public-sector 
clients on crisis management.
    My focus, rather working in Government or outside of it, 
has been how to bring solutions to the local level and how to 
make the lessons learned at the Federal level and the best 
practice accessible to those who are responsible for 
implementing them every day.
    In the context of this hearing, I would like to highlight 
one primary issue, a key challenge, and a proposed solution. 
This issue is how can we translate the technologies and the 
tools that are working in one jurisdiction at the local level 
to other jurisdictions near and far across the country. 
Communities, particularly since 9/11, have done an exceptional 
job of finding the resources to address their local issues, as 
hard as that may have been, whether it is interoperability 
among first responders or access to public and private 
resources during the response and recovery phases of a crisis.
    The challenge lies in the Federal Government, either 
through DHS or FEMA, needing to have a structure in place to 
survey Nationally what is working across the country, sharing 
those best practices and the lessons learned at the local level 
with other jurisdictions around the country, so we are not 
forced to reinvent the wheel around the Nation. As we look at a 
solution, DHS through S&T and FEMA need to connect to 
localities, perhaps through the FEMA field and regional offices 
to find out what is working. Use those Federal resources, 
rather than putting the burden on the local level to find those 
resources to share technologies, to take these best practices, 
the effective technologies and the tools Nationally, so each 
jurisdiction doesn't have to go through the similar trial-and-
error experiences.
    DHS should develop a methodology for using the successful 
technologies and tools that are working regionally and building 
as a template from which other can build. It is important to 
note that this template idea that we have looked at the local 
level is not a one-size-fits-all approach. Any of us who have 
worked at the local level know you can't impose one of those 
structures on them, but it is taking it as a foundation upon 
which jurisdictions can build and customize their needs and 
resources.
    I want to offer a case study that I have worked over the 
last 3 years, which is the Arlington Office of Emergency 
Management. In various capacities, I have had the privilege of 
working with them, led by Jack Brown and Charlotte Franklin, 
and I commend Dr. Griffin for making the move to take 
somebody--Charlotte Franklin was working in economic 
development--and bring her to crisis management. She has been 
tremendously successful and she owes a lot of that to Dr. 
Griffin and through the support of the Northern Virginia 
Emergency Response System.
    Arlington has focused on the role of the private sector in 
disaster preparedness, response, and recovery, but not in the 
traditional sense. The county has not recycled the overused 
term ``public-private partnership.'' It has turned that phrase 
on its head by asking the private sector: What does it need 
from the public sector to do its job?
    If we look at our understanding of the role of the private 
sector since 9/11, we can look at three phrases: 9/11--we were 
concerned if there were enough resources to respond and 
recover. When we had Katrina, we understood that the public 
sector and the private sector had the resources, but we failed 
in matching the needs with the resources. What we now 
understand is that this is not an inventory discussion. It is 
not: Do we have them? Will the private sector donate it? The 
private sector will donate it. The challenge is the supply 
chain management. So how can the public sector work with that--
work with the private sector in facilitating supply chains to 
work effectively?
    Arlington County has taken on this issue in a multi-phase 
project, which began in January 2011. After convening a forum 
with representatives both Nationally and locally from the 
private, public, and nonprofit sectors, the county, through a 
DHS grant and support from NVERS, developed a web-based portal 
that enables citizens to identify where they can donate goods 
and where they can receive assistance. I am happy to go into 
greater detail about the portal, but the lessons here revolve 
around what has happened since this portal was developed with 
Federal money.
    Arlington learned through other grants and other regions 
nearby--they have learned that other regions have developed 
similar technologies. Florida and Louisiana both have a similar 
web-based system. What is noteworthy is that it appears that 
all of these were developed with Government funding, but with 
limited knowledge of each other. What is also important to 
understand is that one of the jurisdictions that developed this 
money through Federal funding offered to sell the platform to 
another's jurisdiction 400 miles away for $50,000.
    The inefficiency of the system is obvious. Arlington works 
under the premise that anything it has developed or discovered 
through Federal monies should be shared without cost. It is 
trying to put the portal on a platform that can be shared 
Nationally and shared with other jurisdictions. I do want to 
highlight that the S&T monies that were used for one of these 
portal-based programs, it was S&T money that funded that and 
S&T monies were also applied successfully to a risk management 
assistance program in Arlington.
    The case study highlights that DHS should have the 
knowledge in both directions of how its monies are being spent. 
Through my experience at the Federal, State, and local levels, 
the other key issues in this context that are worth noting are 
the fact that when S&T develops technologies, it needs to 
ensure that it has the input of those who will be using them. 
Similarly, first responders need to have a formal voice, a 
liaison, or an advocate to DHS and FEMA. Over the past few 
years, first responders have become more empowered to develop 
strategic initiatives for themselves. They know better than 
anyone that crises do not stop at borders and they are working 
hard to integrate those capabilities across lines.
    As we examine ways to improve current capabilities, we need 
to focus on increasing the outreach between first responders 
and S&T, increasing the connection and communication between 
those who are developing technologies and those who will be 
using them. Additionally, this process should not always move 
in one direction. We also need to examine how to distribute the 
information that is collected at the State and Federal level, 
FEMA's information, to the people who need them in a time of 
crisis. We should inventory the existing organizations and 
outreach mechanisms that exist in the Federal Government. As we 
explore ways to improve current processes, we understand that 
it is not always about creating new and novel, but often about 
enriching and supplementing what exists.
    In conclusion, as a country, we rely on our first 
responders every day for disruptions, crises, and disasters of 
all kinds. One of the key intentions of the creation of the 
Science and Technology Directorate within the Department of 
Homeland Security was to enable the Nation's top scientific 
minds to develop cutting-edge technologies and tools to help 
our first responders do their jobs. A key factor to this 
success is the frequent communication and relationship between 
them.
    We can get caught up in the jargon and technical terms, but 
at the end of the day, we need to ask what is needed, how it 
will be used, and who can develop it. The input from first 
responders is critical. We need to be thoughtful and deliberate 
in how we evaluate the needs of first responders, and identify 
and develop technologies that ensure we are being as effective 
as we can in creating prepared and resilient communities. 
Because through the aggregation of small communities, we create 
a strong Nation.
    Thank you for the opportunity to testify before you today, 
and I look forward to your questions.
    [The statement of Ms. Coon follows:]
                Prepared Statement of Kiersten Todt Coon
                              May 9, 2012
                              introduction
    Good morning Chairmen Bilirakis and Lungren and Ranking Members 
Richardson and Clarke. It is a pleasure to testify before you today on 
the Department of Homeland Security's Office of Science and 
Technology's process to develop technologies that support the needs of 
first responders. I am currently President and CEO of Liberty Group 
Ventures, LLC and work with State and local governments, as well as 
corporations, colleges, and universities, on cybersecurity, crisis 
management, response, recovery, and community resiliency.
                               background
    Prior to LGV, I was a partner at Good Harbor Consulting--and 
developed its North American crisis management practice. In this 
capacity, I built teams of small businesses, typically run by 
individuals who had had leadership roles in government, to address 
critical infrastructure protection and crisis management challenges at 
the State and local level. The agility and efficiency of these teams 
proved to be effective in assessing what was needed at the State level 
and helping to translate lessons learned to the Federal level.
    Before Good Harbor Consulting, I worked for Business Executives for 
National Security (BENS) and focused on the role of the private sector 
in disaster preparedness and response, as well as examining the role of 
cybersecurity in crisis management. I spent time consulting for the 
California Governor's office on homeland security and also served as a 
Professional Staff Member on the U.S. Senate Committee on Governmental 
Affairs (now the Committee on Homeland Security and Governmental 
Affairs); I was on the team that drafted the infrastructure protection, 
emergency preparedness, and science and technology directorates of the 
legislation that created the Department of Homeland Security. I also 
worked in the White House domestic policy office and the Office of 
National Drug Control Policy.
    My focus, whether working in government, or outside of it, has been 
how to bring solutions to the local level and how to make the lessons 
learned at the Federal level accessible to those who are responsible 
for implementing them every day. In the context of this hearing, I 
would like to highlight one primary issue, its key challenge, and a 
proposed solution.
                        issue/challenge/solution
    Issue.--How can we translate technologies, tools, etc. that are 
working in one jurisdiction, at the local level, to other 
jurisdictions, near and far?
    Communities, particularly since 9/11, have done an exceptional job 
finding the resources to address their local issues--whether it is 
interoperability among first responders or access to public and private 
resources during the response and recovery phases of a crisis.
    Challenge.--The Federal Government, either through DHS or FEMA, 
should have a structure in place to survey what is working, across the 
country, and share best practices, lessons learned, at the local level 
with other jurisdictions around the country.
    Solution.--DHS, through S&T, and FEMA, needs to connect to 
localities--perhaps through the FEMA field and regional offices--to 
find out what is working and then use Federal resources (do not put the 
burden on the local level to find the resources to share technologies) 
to take best practices, effective technologies and tools, Nationally, 
so each jurisdiction doesn't have to go through similar trial-and-error 
experiences and reinvent the wheel to get to the same solution. DHS 
should develop a methodology for using successful technologies and 
tools that are working regionally and/or locally, as a template from 
which others can build. It is important to note that the template is 
not a one-size-fits-all approach, but rather a foundation upon which 
jurisdictions can build and customize to their needs and resources.
          case study--arlington office of emergency management
    In various capacities over the past 3 years, I have had the 
privilege to work with the Arlington County Office of Emergency 
Management, led by Jack Brown and Charlotte Franklin. Arlington has 
focused on the role of the private sector in disaster preparedness, 
response, and recovery--but not in the traditional sense. The county 
has not recycled the over-used and now somewhat meaningless term, 
``public/private partnership.'' The county has turned that phrase on 
its head by asking the private sector what it needs from the public 
sector to do its job. If we look at our understanding of the role of 
the private sector since 9/11, we can divide it into three phases:
  <bullet> Phase I.--Immediately following 9/11, we were concerned if 
        there were enough resources to help respond and recover.
  <bullet> Phase II.--During Katrina, we learned that inventory was not 
        the issue and the primary concern, which was quickly assuaged, 
        was whether the private sector would be willing to donate the 
        inventory. The primary challenge then became how do we, 
        logistically and legally, get the resources to where they are 
        needed--and, what is the Government's role in facilitating the 
        movement of goods it does not own.
  <bullet> Phase III.--We now understand the public/private partnership 
        issue to be supply chain management-based. We know there is 
        enough inventory, and we know the private sector is 
        philanthropic and benevolent and will donate whatever is needed 
        in a crisis. But, what we haven't figured out is how to ensure 
        supply chain management can operate as effectively and 
        efficiently in a crisis state as it does in an emergency state.
    Arlington County has taken on this issue in a multi-phase project, 
which began in January 2011. After convening a Forum with 
representatives, Nationally and locally, from the private, public, and 
non-profit sectors, Arlington, through a DHS grant and support from the 
Northern Virginia Emergency Response System (NVERS), developed a web-
based portal that enables citizens to identify where they can donate 
goods and where they can receive assistance. I am happy to go in to 
greater detail about the portal, but the key lesson here is what has 
happened since the portal was developed. Arlington has learned that 
through other grants, Washington, DC and Fairfax County have each 
developed a related technology. It has also learned that Florida and 
Louisiana have developed a similar web-based system. What is remarkable 
is that it appears that all of these were developed with Government 
funding, and with limited, if any knowledge, of the others. What is 
also important to note is that one of the jurisdictions that has 
developed this technology offered to sell the platform to another 
jurisdiction 400 miles away for $50,000. The inefficiency of this 
system is obvious. Arlington works under the premise that anything that 
it has developed or discovered through Federal monies should be shared 
without cost and is trying to put the portal on a platform that could 
be shared, Nationally.
    This case study highlights the fact that DHS/FEMA/S&T need to 
understand how its monies are being spent and how to take the successes 
of those grants to other parts of the country.
    Through my experience at the Federal, State, and local level, the 
other key issues in this context that are worth noting are:
  <bullet> When S&T develops technologies, it needs to ensure that it 
        has the input of those who will be using them. Similarly, first 
        responders need to have a formal voice, a liaison, or advocate 
        to DHS and FEMA.
  <bullet> Over the past few years, first responders have become more 
        empowered to develop strategic initiatives for themselves--and 
        they recognize the need for and importance of key issues, such 
        as interoperability of equipment and collaboration across 
        jurisdictional boundaries. First responders know better than 
        anyone that crises do not stop at borders--and they are working 
        hard to integrate capabilities across jurisdictional lines.
    As we examine ways to improve current capabilities, we need to 
focus on:
  <bullet> Increasing the outreach between first responders and S&T--
        increasing the connection, communication between those who are 
        developing technologies and those who will be using them. 
        Additionally, this process should not always move in one 
        direction--there are cases where new technologies are developed 
        in response to needs, as well as scientific discovery; and, 
        there are cases where needs directly inform what technology 
        should be built.
  <bullet> We must inventory the existing organizations and outreach 
        mechanisms that exist between S&T, FEMA, DHS, and first 
        responders and identify the most effective and efficient ways 
        to utilize them. As we explore ways to improve current 
        processes, we understand it is not always about creating new 
        and novel, but often it is about enriching and supplementing 
        what exists and making it more accessible.
                               conclusion
    As a country, we rely on our first responders every day for 
disruptions, crises, and disasters of all kinds. One of the key 
intentions of the creation of the Science and Technology Directorate 
within the Department of Homeland Security was to enable the Nation's 
top scientific minds to develop cutting-edge technologies and tools to 
help our first responders do their jobs. A key factor to the success of 
this idea is the frequent communication and strong relationship between 
those who are developing the tools and those who are using them. We can 
get caught up in jargon and technical terms, but, at the end of the 
day, we need to ask what is needed, how will it be used, and who can 
develop it. All of the necessary pieces exist--it is now our 
responsibility to figure out how to complete the puzzle.
    Thank you for the opportunity to testify before you today. I look 
forward to answering any questions.

    Mr. Bilirakis. Thank you, Ms. Coon. I want to thank the 
panel for your excellent testimony--very informative. Now, I 
would like to recognize myself for questions. I recognize 
myself for 5 minutes.
    I want to begin with Dr. Griffin. Dr. Griffin, since 
December 2010, when your First Responder Group was established, 
you have developed the Solution Development Process. This 
process is designed to pull first responders from around the 
Nation into S&T's methodology for developing resource 
priorities. Can you tell me how this works exactly? How do you 
choose the first responders to participate? Is it done by 
survey or do you get together in a physical location once or 
more a year? Then I have a follow-up. Please, sir.
    Mr. Griffin. Thank you, Mr. Chairman. As we thought through 
our requirements gathering process, one of the things I have 
tried to do is build off the existing IPT process that was in 
place, but I wanted to work to better identify operational gaps 
and find a way to clearly prioritize programmatic areas. So one 
of the first things I did was I partnered with FEMA and we 
developed Project Responder as a mechanism to both identify 
operational gaps from first responders across the country and 
then to use that as a mechanism to prioritize areas that we 
were going to put funding in, recognizing that I don't have 
enough money to fund all of the needs of the first responder 
community. So it also provides us a structure that we could use 
to create priorities.
    What I also then did is I brought in other workgroups, like 
the IAB, InterAgency Board, spoke with professional 
associations, looked at what was going on in regional 
workgroups in order to cross-validate our priorities and needs. 
As we look at our first responder outreach effort, I try to do 
a couple of things. I try to make sure that we are balancing 
our groups with not only folks from high-risk urban areas, but 
also suburban and rural areas. I try to make sure that we are 
balancing our first responder outreach to include all of the 
demographics of the country, thinking about communities that 
are both affluent and less affluent. I am also trying to 
balance our groups so that we have a fair cross-section of all 
of the functions, so that we have law enforcement and emergency 
medical services and fire and emergency management, and other 
first responder entities equally balanced to make sure that we 
are thinking cross-functionally as we develop our set of 
requirements.
    What we have been doing is that we have been bringing the 
committees together once a year and then using video conference 
and teleconferences in order to then build sets of requirements 
off of our prioritized lists.
    Mr. Bilirakis. Thank you. For the first responders on the 
panel, how many of you have been asked to participate in S&T? 
Then how many have you? Anyone here been asked to participate 
in S&T?
    Chief Kilduff. Yes, sir. We have participated with S&T on a 
number of different projects. In fact, Dr. Griffin was up with 
us 2 weeks ago, as we ran an exercise with a class of West 
Point cadets, looking to build out a network of communication 
and information sharing that they could use in their exercise. 
Then Dr. Griffin basically takes that back to his groups and 
sees if he can develop that network communication program, 
something that is very important to us. So we want to stay--
keep close ties with Dr. Griffin and the Directorate.
    We also have a member that is dedicated to a couple of Dr. 
Griffin's project staffs that, although he was not there full-
time, he has a full-time participant is a few committees, 
mostly to do with detection equipment and hazmat management. We 
have found the Directorate to be very responsive to what our 
needs are and has always basically led whatever we need--has 
always led the committees in that direction, obviously for the 
benefit of the entire first responder community, but has always 
been very responsive to us and our needs.
    Mr. Bilirakis. Very good. Anyone else on the panel who has 
participated?
    Okay. Question for Ms. Doying. Capitol Hill and the State 
of Florida are two places where the memory of the anthrax--I 
know you address this a little bit in your testimony, but the 
memory is so very strong of the anthrax attacks of 2001. Those 
attacks drove most of the work in biodefense this Nation has 
undertaken in the last decade, including development of 
improved protective and detective equipment for first 
responders.
    You said in a course, that you taught this course for 6 
years, you used to ask your first responders how they feel 
about going into an anthrax-laden building to provide response. 
What was their response then? Then how would you think they 
would feel now? Is the equipment needed to do that work both 
available and affordable to you? Very important.
    Ms. Doying. Thank you.
    Mr. Bilirakis. You are recognized.
    Ms. Doying. Yes. At the time, as I would teach that class 
and I would relate that story, all of the fire fighters and law 
enforcement officers and EMTs in the room, they would laugh, 
because the low-bid approach in local government to purchasing 
technology is a long-standing custom. As we have moved forward 
over the last 10 years, what I do know is that those first 
responders from my community and the communities that surround 
me that have participated in the consortium training using the 
right tools, learning the methodologies for approaching a 
chemical or biological incident, they have gained a lot of 
confidence in the Nation's ability to respond to those events.
    I also know that within fire service, the advancements with 
SCBA, for example, to be more protective for a chemical or 
biological incident and other safety features that have moved 
forward into the PPE realm, have also increased the confidence 
of the local first responder.
    Mr. Bilirakis. Okay, so is the equipment available. Second, 
is it affordable in your opinion?
    Ms. Doying. It is available. Affordable in a highly-focused 
way. Not available to the n'th degree. You know, you have to 
concentrate who you are going to suitably protect and, 
therefore, who you are going to not only gear up physically, 
but gear up mentally to be the first line of defense for a 
specific type of incident.
    Mr. Bilirakis. Thank you very much. Now I recognize Ms. 
Richardson for 5 minutes.
    Ms. Richardson. Yes. Thank you, Mr. Chairman.
    Chief, would you tell us if you agree or disagree with the 
assessments that Ms. Coon made?
    Chief Kilduff. I think that Ms. Coon made some very 
valuable assessments when it comes to how a local picture can 
be translated to a more National picture. I think that a lot 
needs to be done by connecting communities, by connecting 
people that have the ability to sponsor equipment, test 
equipment, and then train and equip members that are out in the 
first responder community. It is a step-by-step process that is 
underway but has quite a few gaps when it comes to coordination 
when it comes to coordination and also when it comes to 
funding.
    So I think what Arlington does is admirable and they are 
leaders in a lot of these first responder communities. They do 
have a very heads-up--it is an integral group that is very 
attuned to National security, homeland security, first 
responder preparedness, and they are a good demonstration for 
that. But it all has to be applied at a National level and that 
is really I think where this should be headed.
    Ms. Richardson. Dr. Griffin, are you aware of the concerns 
that both the Chief and now Ms. Coon have expressed?
    Mr. Griffin. I am, Ma'am. It is one of the areas that we 
are looking to address because I think it is a great 
opportunity for us. One of the values that I believe my group 
can bring is by connecting first responders around the country. 
I understand that there are limitations and a direct 
correlation between what works in Arlington County versus what 
may work in Seattle, but at the same time, there is great work 
being done at the local government that we can link together.
    So as we think about some of our tools--like 
firstresponder.gov or our first response community of practice, 
which actually allows first responders to get on our sites and 
safely chat with each other about what is working and not 
working--are tools that we look at as, in part, trying to begin 
the process of addressing the concerns that were raised in 
testimony.
    Ms. Richardson. Excuse me. Ms. Coon, could you share with 
Dr. Griffin why those systems do or do not work?
    Ms. Coon. The system to translate what is working at the 
local level, Nationally?
    Ms. Richardson. Right, and communicating that. He just 
referenced firstresponder.gov and some other things.
    Ms. Coon. So I think it is taking--what you want us to 
encourage the local levels to be innovative and to take on the 
money to do something that is sort of pushing, as Ms. Doying 
talked about, the cutting-edge technologies. I am not--I don't 
know that they are not working.
    What I do know is that, in the experiences that I have had, 
taking something efficiently that is working at the local level 
and trying to work through the Federal Government to get it out 
there, is a little bit of a cumbersome process. But I do want 
to say that I am not--I don't know that those particular 
mechanisms are not working. They just have not been accessible 
to the projects that I have been working with.
    Ms. Richardson. Okay. So Dr. Griffin, are you hearing their 
concern?
    Mr. Griffin. Yes, I am.
    Ms. Richardson. Can you get back to the committee on what 
you can do to address the concerns that have been addressed by 
the folks here who have testified?
    Mr. Griffin. Absolutely.
    Ms. Richardson. My first question has to do with--Dr. 
Griffin, being here on the committee now myself for a couple of 
years, quite a lot of money has been expended for these various 
programs. What are you going to do to make sure that the first 
responders are spending their limited funds on equipment that 
is actually necessary and that works? I think it builds upon my 
initial first questions that I just asked.
    Mr. Griffin. Part of the challenge, as I tried to address, 
is that there is not a single set of requirements that are 
going to meet the needs of 80,000 first responders. So as we 
develop technologies, we recognize that we have to continue to 
work with first responders through our entire process, so that 
we work through what we call a spiral development process. As 
we develop technologies, they are an integral part of 
redefining and continuing to define equipment that we are 
trying to bring to market.
    Ms. Richardson. Dr. Griffin, if you don't know, we 
certainly can't expect them to know. I served in local 
government and I am familiar with--for example, the Chief, is 
from a very large city--like, for example, Los Angeles or Long 
Beach. The city of Long Beach--I was on the City Council--it is 
one of the top--I think it is the 33rd city in the State of 
California. So there are larger cities. There are medium-size 
cities. Then there are smaller cities.
    So what is precluding the Department from coming up--
obviously, every Department is different. However, we don't 
have time to have every single city create their own process. 
So what is precluding your Department from creating a basic 
model for larger cities, medium-size cities, smaller rural 
cities of at least some basic frameworks of what has been 
done--what is available, how they can utilize it, and then 
providing a mechanism for those that are being innovative and 
creating new things to be able to piece that in, so that we can 
save time and money of what the other folks are doing?
    Mr. Griffin. To answer that question maybe better than I 
started to. We are working with--we do work with FEMA on those 
very processes. We also spend a lot of time developing 
toolboxes, which will allow local jurisdictions to take the 
knowledge that we have gained and adapt it for their personal 
uses, tailored to their organizations just for those reasons.
    The other part of one of the drives that I have had is also 
to better define where we are putting our money, so that people 
understand what projects we are working on, so they can begin 
to think about how it could be adapted for their use. We do 
take best practices and we do push them out to the first 
responders so they can see what other first responders do. 
Because what we find is that first responders who talk to first 
responders are learning an awful lot.
    So it gets back to the conversation that we had a little 
bit before. But building toolboxes and basically, excuse the 
analogy, but teaching first responders how to fish, rather than 
giving them the fish is part of our responsibilities and it is 
something that we do do.
    Ms. Richardson. Okay. Mr. Chairman, could I ask one last 
question?
    Mr. Bilirakis. Yes, but one more question.
    Ms. Richardson. Okay. Thank you, sir.
    Dr. Griffin, do you feel it is appropriate that if an 
agency is using Federal dollars to create a system, is it 
appropriate for them to be charging other jurisdictions to 
utilize that same system if it was Federal dollars that was 
spent? If you don't think it is appropriate, do you have any 
rules or process in place to prohibit that from occurring?
    Mr. Griffin. Ma'am, I am not sure about any rules. I will 
gladly, for the record, return a more cogent answer to you.
    I can tell you from my own first experience in the first 
responder community is that anything that we developed, 
particularly money that was--well, it was anything that we 
developed in either Loudoun County or as Chief or in Arlington 
County, we gladly gave for free to other communities. So there 
is an awful lot of sharing that does go on from community to 
community. I will find a more cogent answer to your initial 
questions about policies on charging.
    Ms. Richardson. Okay. It is not just restricting to 
Arlington, but it is other agencies that may be seeking to 
charge Arlington and/or other jurisdictions. Thank you. Thank 
you, Mr. Chairman.
    Mr. Bilirakis. Thank you. Thank you. Ms. Clarke, you are 
recognized for 5 minutes.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman.
    Dr. Griffin, many of us believe that S&T should have a 
formal strategy, clear guidelines, and requirements for first 
responders funded research. In your testimony, you talked about 
the first responder Integrated Product Team, IPT. You mentioned 
the solution development process as part of the IPT, but it 
appears to be an informal mechanism to hand out millions of 
dollars in research.
    What specific steps are you taking to make the Integrated 
Product Team more analytically rigorous? Please give us more 
detail about the solution development process. Who serves on 
it? Who does it answer to? What role does it play in your 
overall strategy?
    Mr. Griffin. Thank you for the question, ma'am. It is a 
very complex question. Again, I will be glad to submit, for the 
record, a more formal answer. If I could just real quickly try 
to hit on it. The process that I laid out in my written 
testimony is actually a very formal process that I have 
instituted within our group. So as we have defined the 
strategic programmatic areas that we are working on, what we do 
is that we use the IPT process and outreach to first responders 
is to begin to gather requirements that we build projects off 
of. Those projects then are worked through the formal process 
within Science and Technology that Under Secretary O'Toole 
briefed you on.
    So what I have done is that I have integrated our IPT 
process with what is happening in S&T. So we work through the 
same portfolio review process. In fact, each month I take a 
quarter of our portfolio and work a smaller portfolio review 
process to make sure that we are meeting the goals and metrics 
that we have defined for those projects. So it is very formal 
as far as working into the new systems that have been 
incorporated into Science and Technology.
    In addition, what we have done is that we have tried to 
define areas--those programmatic areas that we are going to 
fund, recognizing that there are lots of capability gaps that 
were identified in Project Responder. There were 40. We are 
putting money towards five. Of those five, we are hitting only 
partial, you know, partial solutions to those questions.
    But what I can show you, though, is a much more 
programmatic structured approach to how we are spending our 
money and how we are leveraging a lot of other folks' money. So 
it is a much more structured process than it was. It is a much 
more strategic process with the idea of both identifying where 
short money can go, but also areas that we just are not able to 
hit because of budgetary constraints.
    Ms. Clarke of New York. Well, thank you. Clearly, that is a 
real challenge when you are really--you are dealing with such a 
fluid dynamic in the varying jurisdictions around the Nation 
and terrain. You know, we talked about the forest fire 
incidents and the types of new technologies that would be 
applicable there may not necessarily be applicable in a 
municipality or a city.
    Mr. Griffin. Yes, ma'am. If I could just hit that point 1 
second. If you look at the gear on the table, what for a long 
time we were doing is we were putting our wildland fire 
fighters instructional gear--like you see my old jacket there--
what we have done is working with the Department of Defense and 
Agriculture and U.S. Fire Service and Kell Fire, is that we 
have developed a new set of gear based on requirements gathered 
from the wildland fire fighters, just because it represents 
such a change in the need of gear. Okay. That is just a prime 
example of how we are trying to provide goods to the first 
responder community.
    Ms. Clarke of New York. There is much more of a rigorous 
application than I guess we read into in terms of the 
testimony. I look forward to you just forwarding to us 
something more, I guess, more substantive that pulls it all 
together for us.
    Then my final question is to you, Chief. I want to thank 
you, once again, for taking the time away from what I know are 
massive duties back in the city.
    In your testimony, you talked about your tiered response 
system. Is that different from the Incident Command System?
    Chief Kilduff. Well, Incident Command System would provide 
oversight to--and structure to an incident. Our tiered response 
is taking certain equipment and certain training abilities, 
putting them in different units, and then having a layer of 
these different units respond to an incident.
    So we would have our hazmat unit. If we had a hazardous 
materials incident, we would have our hazmat unit respond with 
over 600 hours of training and we would couple them with more 
local units that would have a reduced number of training but 
still capabilities to complement the hazmat unit. Then we would 
train them down. We would have other units respond that might 
be entry units. Below that, we would have units come that might 
be decontamination units, and units that would then decon any 
victims or any patients of some sort, hand them off to an 
advanced layer of EMS personnel that have special training.
    So what we have done is we have layered the capabilities of 
our units. These units respond every day as fire fighting and 
emergency response units. Same thing with EMS, though we have 
given them additional capabilities so we can layer whatever 
response is necessary for a particular incident.
    Ms. Clarke of New York. Mr. Chairman, I know that I have 
gone over time. I just have one more question.
    Mr. Bilirakis. We are going to have a second round, but you 
can have another question.
    Ms. Clarke of New York. Okay. Thank you. Thank you, sir.
    I just wanted to find out whether, Chief, you had any ideas 
that are coming from the men and women from a ground-up 
perspective. How do you take these new ideas and evaluate them 
to see if they in fact are valuable? Then second, does the 
department have any formal way or protocol for you to send 
ideas that you have vetted by the department to be evaluated by 
your policymakers, laboratories, and advisory panels?
    Chief Kilduff. If we receive something from the field units 
that is of particular interest to us, we generally will direct 
it to your research and development folks who have the ability 
to reach out to many different testing and validation 
throughout the country. We do rely heavily on the National Fire 
Protection Association and the standards that they have set for 
a lot of our equipment. That equipment has also been tested by 
other folks to validate the usefulness of the equipment.
    So there are actually quite a few layers that we can go 
through. You know, S&T is one group that represents a National 
level, so to speak, but there are other private interest 
groups, private testing companies that we will all channel 
through our research and development folks. We are fortunate 
that we do have a robust research and development. That is 
really why we are here is because not everybody has that 
capability, but that is how we would work that.
    Mr. Bilirakis. Thank you very much. I will recognize myself 
for this second round for 5 minutes.
    First question is for Ms. Saunders. I was pleased to read 
in your testimony your reference to the NIST, National 
Telecommunications and Information Administration laboratory at 
the Department of Commerce in Boulder, Colorado at the campus. 
My staff has visited this site and was very impressed with both 
the work being carried out and the expertise and dedication of 
the staff working there.
    With regards to the 700 MHz Public Safety Broadband Network 
that is being constructed in the coming years, in your opinion, 
are NIST and NTIA being given all the resources that they need 
in order to develop the necessary standards and to plug the 
gaps, as you call them, so that the network will be a success?
    Ms. Saunders. Thank you, Mr. Chairman. I mentioned the 
recent passage of the Middle Class Tax Relief and Job Creation 
Act of 2012, Public Law 112-96, and its allocation of $7 
billion in funding and new broadband spectrum. So our 
colleagues in the National Telecommunications and Information 
Administration are actively pursuing essentially a loan or an 
advance on that funding, so that in partnership with NIST, we 
can go ahead and take the next steps in terms of both the test 
bed and the standards participation.
    We are in the process of developing a memorandum of 
understanding between NTIA and NIST, laying out respective 
roles and responsibilities very clearly in this particular 
space. I will say that our technical staff at NIST have gone 
ahead and aggressively identified the relevant centers' 
organizations and a major center's organization is at the 
international level. So these are international standards and 
have already established NIST institutional membership in those 
organizations and we are gearing up to--we have already begun 
participating. So we are well on our way to taking the next 
step with the test bed.
    Mr. Bilirakis. Very good. Thank you very much.
    Our next question is for Mr. Griffin. The Emergency 
Preparedness Subcommittee has been closely following the 
development of the Commercial Mobile Alert System, CMAS. In 
your testimony, you noted that S&T is working on a number of 
activities to improve the system capabilities. Would you please 
elaborate on this and how are you working with, of course, 
FEMA, the FCC, wireless carriers, and alert originators to get 
these enhanced capabilities into the field?
    Mr. Griffin. Certainly, sir. The Science and Technology and 
the First Responder Group is actually responsible for the 
RDT&E, the Research, Development, Test, and Evaluation for 
Commercial Mobile Alert Services, CMAS, and the Integrated 
Public Alert Warning System, IPAWS. We work in close 
partnership with both the FCC and FEMA and the private 
industry, because the carriers are incredibly important in the 
whole alerting and warning systems.
    I would highlight the work we did in December 2011 in New 
York City. We are working with the Department of Emergency 
Management in New York, FEMA, and their Central Aggregation 
Systems, and the commercial carriers. We were able to send the 
first end-to-end text message for alerts and warnings. We are 
taking the information that we learned from that test and we 
are developing both lessons learned and identifying additional 
work that needs to go on within the sphere of CMAS and IPAWS.
    What is coming next for us is that we are looking at 
funding. We are currently funding research on public response. 
We are looking at targeting of alerts to specific geographical 
areas. We are planning four regional tests and a National test 
on public alerts and systems. We are developing best practices, 
lessons learned, and case studies for alert originators that 
will help both local emergency managers as well as industry 
leaders work together as far as developing a National alert 
system.
    Mr. Bilirakis. Thank you very much. Chief, you want to 
comment on the testing that took place in New York with regard 
to CMAS?
    Chief Kilduff. Actually, that was actually run through OEM, 
but I am not personally that familiar with it. I know that we 
participated. We have some very talented people that have been 
working on it, but I personally am not that familiar with it.
    Mr. Bilirakis. All right. No problem. Well, thank you very 
much. Appreciate it. Now I yield 5 minutes to the Ranking 
Member, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Dr. Griffin, coming back to follow up on some earlier 
questions. You mentioned that S&T works with FEMA to provide 
information to first responders. Other than your 
firstresponders.gov and so on, what other mechanisms are you 
doing to coordinate with FEMA to ensure that first responders 
know what equipment is available, what they might possibly 
need, and how they might go about interacting?
    Mr. Griffin. Sure. We work closely with FEMA in a number of 
different ways. So FEMA has responsibility for coordination of 
operations and does a lot of outreach with local first 
responders, State and local first responders, and is 
responsible for grant funding. We are responsible for the 
research, development, test, and evaluation developments and 
standards and requirements-gathering process. We do these in 
conjunction with our FEMA partners.
    So when we set out initially to begin to figure a way to 
create a formalized process for gathering requirements through 
Project Responder, we did that in conjunction and in 
partnership with FEMA. We also work with FEMA in areas like the 
alerts and warnings standards I just spoke to, as well as other 
standards, communications interoperability standards--the 2P25 
standards--which we develop in conjunction with people like 
NIST and others. Then we work with the FEMA grants folks to 
make sure that interoperability language is worked into the 
grant process.
    As we look at areas like data sharing and how we can move 
data from like New York City to the State of New York to the 
Federal agencies and then back down again. So I think it is 
critical that we figure out ways to move data from both the 
Federal agencies back down to local governments. We work 
closely with FEMA to make sure that we are integrating all of 
our systems with the systems that they use. So we work closely 
with them in most aspects of everything that we do.
    Ms. Richardson. Okay. Ms. Saunders, the budget for S&T was 
significantly reduced from 2011 to 2012. As a result, the 
funding to NIST dropped from $18.6 million to $17.6 million. 
Were there projects that were discontinued or delayed due to 
the result?
    Ms. Saunders. Yes, ma'am. There were. There are various 
projects impacting first responders at the Federal, State, and 
local levels have either been scaled back or are no longer 
funded due to the changes in the funding that you mentioned.
    I will give you two examples. One is our projects 
associated with personal protective equipment, specifically for 
the Fire Service. Many of these efforts prior to this year 
focused on standards development through the National Fire 
Protection Association and successful development with respect 
to thermal exposure measurements for first responders in the 
areas of PASS devices, radios, and self-contained breathing 
apparatus.
    The standards for respirator masks--we have not yet been 
able to get to the thermal metrics to those and currently there 
are no high-temperature performance metrics that exist to test 
respirator masks under high heat conditions. Those efforts were 
not funded this year. S&T's First Responder Group and Human 
Factor's Division was unable to fund the last phase of an 
effort to develop a standard design guidance for the patient 
compartment for an ambulance that takes human factors and 
safety into consideration. The EMS community had identified 
this as a No. 1 requirement.
    We were able to stretch fiscal year 2011 funding to ensure 
that we will be able to provide design guidance to NFPA next 
spring to incorporate into the standard. It won't be quite as 
comprehensive as originally planned, but we are able to 
continue that. I would be happy to provide and follow up with a 
specific list of the projects that were either terminated or 
reduced in funding.
    Ms. Richardson. Could you provide that to the committee, 
please, as soon as possible? Thank you.
    Last two questions. Chief Coons, with respect to R&D, do 
you think that the Department adequately responds to the needs 
of first responders?
    Ms. Coon. Did you mean Chief Kilduff?
    Ms. Richardson. Yes. I am sorry.
    Chief Kilduff. Well, we are talking about the FDNY R&D?
    Ms. Richardson. Yes.
    Chief Kilduff. Yes. From our point of view, we think that 
we cycle new equipment--a lot of PP through there. Everything 
that we--a lot of communications equipment we cycle through 
R&D. We pilot everything that we do. We don't just randomly 
throw it out because somebody put a stamp of certification on 
it or some agency or some bureau or whatever says this is the 
hottest, newest, best product there is.
    Everything we do, we test it thoroughly. Then we select 
companies and we pilot the equipment for an extensive period of 
time. We also collect an extensive amount of data and 
evaluations on that equipment. So we find, from within, out R&D 
is a very effective unit.
    Ms. Richardson. But do you feel that the Department's R&D 
is appropriately supportive?
    Chief Kilduff. Yes. Yes.
    Ms. Richardson. Yes. Okay. If I might, and I am sorry, Mr. 
Chairman, for asking this twice. But I have noticed Ms. Doying 
has not had an opportunity to comment as much. I just think it 
is appropriate if we could give her an opportunity if there is 
anything else. I didn't have a specific question, but if there 
was something else you wanted to----
    Mr. Bilirakis. Yes, I was going to ask them all, in truth. 
Yes. Absolutely.
    Ms. Richardson. Okay.
    Mr. Bilirakis. But she can take the opportunity now if she 
wishes.
    Ms. Richardson. Sure. Ms. Doying, was there anything else 
that you wanted to convey based upon all of the other testimony 
that is going on that maybe we haven't asked you that you feel 
would be appropriate to share?
    Ms. Doying. Well, I find it interesting that there is what, 
to my perception, is a common thread. This is that there is a 
lot of good work being done and it may just be a matter of 
smaller communities, which I represent, not having strong 
visibility of what is out there and available to them. It may 
sound a bit strange for me to say, but it is almost as though a 
strong public relations campaign about the good stuff that is 
out there is needed. I know that this is true for, for example, 
the IPAWS and the CMAS projects.
    You know, if the public doesn't know the good work that is 
being done by local, State, regional, and Federal authorities, 
well then certainly the guys that are really busy trying to do 
their job--local government's been under a huge constraint 
financially, so we have scaled back and scaled back. So for 
local leadership to have the energy to study the big things 
that are going on around them and grab hold of those big things 
and make use of them locally, it is difficult. It is a huge 
challenge.
    So it may sound a bit funny to say--you know, we go home 
and we watch TV in the recliner and we are told a lot of stuff 
and we missed the most important stuff while we were at work, 
because for some reason, it just wasn't shared cross-
jurisdictionally.
    Mr. Bilirakis. Thank you very much. Yes. Again, anyone else 
want to add something with regard--any concerns that you might 
have, any suggestions that you have?
    Of course, Dr. Griffin, if you want to elaborate further on 
the equipment here. Is this equipment ready for prime time? Is 
it in development? Anyone else want to add whether this 
particular equipment here in front of us will be helpful, 
affordable, what have you, accessible? But, Dr. Griffin, do you 
want to elaborate further, first? Then I want to give everyone 
an opportunity to speak, because we do have some time.
    Mr. Griffin. Thank you, Mr. Chairman. If I could, please. 
Part of the paradox of our world is that if we do our job well, 
and this is particularly for Science and Technology and NIST 
and the first responder community, is that people don't know. 
So when they pick up or purchase a radio from Motorola or Talis 
or Harris that provides an increased level of interoperability, 
what gets lost is the amount of work that goes into the 
standards and the development of that technology.
    So part of it is marketing. Part of it is realizing that 
one of metrics of success is knowing that our standards are 
making a difference in the field. We try to listen to the first 
responders' needs and transition equipment quickly.
    I am going to highlight really quickly the story of the 
backboard cover in front of you, sir. We received an inquiry 
through firstresponder.gov from some EMS providers in Florida, 
who were concerned about the cleanliness of backboards. They 
said are there ways that we could do something about that? What 
we are able to do is, was work with a small business and first 
responders developed requirements and within 9 months had a 
concept to commercially available backboard cover that slips 
right over the board and provides protection for not only the 
patients, but also our first responders.
    That is really how we are trying to think about the quick 
transition of equipment to the first responder community. That 
is disposable. It sells for $15. So it is affordable.
    Some of our other technologies--the fire fighter gear is in 
pilot. We are looking at different fibers. We are looking at 
different weaves. We are looking to try to hit a different set 
of requirements for the wildfire gear. That is why we have a 
thousand sets of gear that we are going to be looking at this 
summer to see which is the best fit for our wildland fire 
fighters.
    Then if you start to look at the self-contained breathing 
apparatus here, you can see that the older sort of steel 
cylinder and what we have done with a Kevlar wrap. That is work 
that we are still working with the commercial sector, with the 
idea that frankly we don't purchase equipment for the first 
responders. We develop technology and then we have to make sure 
we have a strong working relationship with the commercial 
sector in order for them to have a place to buy it.
    So these are all examples about how we are trying to bring 
both process and good to the first responder community.
    Mr. Bilirakis. Ms. Saunders, would you like to add 
something?
    Ms. Saunders. Just briefly, to build on what both Chief 
Kilduff and Dr. Griffin mentioned. I agree strongly, if NIST is 
successful at what we do in terms of our measurement science 
contributions, that role will not be visible, but what you will 
see, or what the first responders will see, are standards for 
apparatus and equipment and systems that have a strong 
technical underpinning and can be tested with respect to how 
they perform. That is an important point that Chief Kilduff 
made.
    A standard is only useful if it is implemented. For, in 
this space in particular, that necessitates testing or, in some 
cases, certification of the equipment. That testing needs to be 
done by competent authorities, competent independent test labs 
or certification authorities. Then that information needs to be 
made available and characterized in practical terms so that 
first responders can actually make informed decisions about the 
types of equipment or the quality of equipment that they 
purchase.
    Mr. Bilirakis. Chief, would you like to add anything?
    Chief Kilduff. Yes, sir. Thank you. Just as a point of 
information, we are developing a program right now that we will 
be working with NIST this summer out in Governor's Island in 
the harbor of New York. We are going to burn up a few buildings 
up there. Together with NIST testing ability, we are going to 
test fire dynamics. We are going to test ventilation principle, 
et cetera.
    So there is collaboration that goes on to set standards 
that will be presented to a National audience. It takes a 
little time, but it will be presented to a National audience. 
It is good work that goes on.
    I think what you have heard also today is important for the 
committee to take into consideration--that first responders, 
particularly the fire fighting and EMS communities are the 
folks that put their hands on the people when something 
happens. We are the ones that go to get the people when they 
are in danger or when they have been affected by an incident or 
an event or whatever it is--whether it is Joplin, or whether it 
is a hurricane, whatever the situation is, or that biochem 
release. This equipment here is going to enable us to go into 
that environment and get people out of the environment.
    We have spent an awful lot of time over the years, 
particularly since September 11, trying to secure the country, 
all for good reasons and extremely important. But now I think 
the first responder community I think is demonstrating every 
year, as we move away from September 11, away from that 
security mindset to some degree, that it is important to fund 
the folks that are helping people day-in day-out in those all-
hazards event and everything else, not just terrorist-type of 
events.
    So that is where I would like to leave the focus of this. 
That is where our focus is. We want to collaborate with 
everybody here. We also sent dispatchers down to Arlington 
about a month ago to look at their OEM center there because we 
are investing hundreds of millions of dollars in a call center 
up in New York. We wanted to go down, because we knew they had 
some best practices down there. It is all collaboration, but it 
is all to create a network of information and intelligence, 
when necessary, to make people safer when they do enter those 
environments to, again, get the people out or assist the 
people, whatever needs to be done.
    So I just wanted to leave with that point of view. We are 
willing to collaborate with anybody and we fully expect that 
this is now going to shift to a regional, if not a National, 
perspective when it comes to this first responder capabilities.
    Mr. Bilirakis. Thank you. Ms. Doying, the RNC, of course, 
the convention will be held in Tampa in August. Has the local 
Tampa Police Department reached out to Pasco County, the 
neighboring county north of Hillsboro County with regard to--if 
you would like to speak. Has there been cooperation, because 
obviously they are in need of your services? If you want to 
speak to that or anything else, you are welcome to.
    Ms. Doying. Sure. Yes, the approach from the first response 
community towards the incoming folk for the Republican National 
Convention has been a collaborative region-wide approach. 
Actually, our State-wide partners are assisting with that. It 
is very, very collaborative. A lot of good equipment going on 
the street, people being outfitted and trained in the use of 
the best technology that will ensure protection of people that 
are arriving in the greater Tampa Bay area.
    You know, I found that as the Chief talked, it really 
resonated with me that we are in a better place in the year of 
2012. I have served for 20 years in emergency management in the 
State of Florida. What I have observed just in the last decade 
is a really strong movement towards standardized approaches to 
managing incidents.
    I have seen a very strong effort coming out of the 
Department of Homeland Security to ensure that the first 
response community is well supported and it is recognized that 
it is the first response community that serve the local citizen 
that is in danger and in need. I applaud and appreciate the 
efforts of the Department of Homeland Security. Coming from a 
small local community, we feel the effects. We definitely feel 
the effects of Science and Technology and of NIST.
    Mr. Bilirakis. Thank you very much. Ms. Coon, would you 
like to add anything?
    Ms. Coon. Just one point to support what Ms. Doying said, 
actually earlier. When we look at crisis management, just as we 
don't expect people to act in a crisis beyond the aptitudes 
that they are already performing well, in day-to-day, we 
don't--we shouldn't expect that. We just want to be able to 
support people to do what they do well.
    I think, in this case, S&T does well with what they are 
doing in technologies. The key here is that I believe, to Ms. 
Doying's point about the PR campaign, FEMA plays a critical 
role in this--that FEMA can be that facilitator among 
circulating technologies--what is working--what is not working. 
They have field and regional offices that are working on these 
issues all the time.
    That to me might be a--if we look at what can be done more 
effectively or more efficiently, it is creating that role. 
Whether it is the PR campaign, which I think is a great way to 
categorize it, or something to be able to communicate and 
create that liaison role between what is happening in Science 
and Technology, the first responders. FEMA really is a very 
strong element and that infrastructure is already in place and 
we need to utilize that more effectively.
    Mr. Bilirakis. Very good. Well, thank you very much. I 
appreciate it. It was a great testimony--very informative--very 
valuable. I think it has been a very productive hearing.
    I also want to note that Chairman Lungren has been detained 
in the Judiciary Committee. I know he shares our interest in 
this topic. His questions will be entered in the record, so if 
you could respond to those questions.
    I thank all the witnesses, of course, for their valuable 
testimony, and the Members for their questions. The Members of 
the subcommittees should be reminded that additional 
questions--they probably will ask you additional questions in 
writing and we ask that you respond in writing. The hearing 
record will be open for 10 days.
    Without objection, the subcommittees stand adjourned. Thank 
you very much, again.
    [Whereupon, at 12:34 p.m., the subcommittees were 
adjourned.]


                            A P P E N D I X

                              ----------                              

        Questions From Chairman Gus Bilirakis for Robert Griffin
    Question 1. For some time, the DHS Science and Technology 
Directorate had grappled with how to best interact with the Nation's 
many and diverse State and local first responders to ensure that their 
technology needs were being met. S&T has clearly amended its process in 
the past few years in a way that seems to have alleviated some of those 
partnership issues and fostered much more inclusiveness.
    Do you believe that S&T is in the most optimal place now when it 
comes to engaging first responders and ensuring that their requirements 
are heard? Or is there any room for improvement?
    Answer. Response was not received at the time of publication.
    Question 2a. Please provide additional information about the 
process the Science and Technology Directorate uses to identify 
capability requirements from the first responder community and 
prioritize those requirements into research projects.
    Specifically, how are requirements validated and prioritized for 
funding by the Directorate? What specific criteria are used? Do 
projects or solutions that have broad applicability to different types 
of First Responder communities have a higher priority?
    Answer. Response was not received at the time of publication.
    Question 2b. How is the First Responder Integrated Product Team 
(IPT) integrated into the overall IPT process for the remaining 
divisions within S&T? Are requirements that are identified within the 
First Responder IPT cross-walked against requirements that may be 
developed in other IPTs to identify duplications or overlaps that may 
present opportunities for efficiencies or synergies?
    Answer. Response was not received at the time of publication.
    Question 3. The Interagency Board (IAB), with whom you partner, 
develops a list every year of research and development (R&D) priorities 
for first responder equipment. The list is based on a survey of first 
responders in categories such as urgent need, mission performance, and 
life safety.
    How do S&T's R&D priorities and investments reflect this annual 
list produced by the IAB?
    Answer. Response was not received at the time of publication.
    Question 4. You have indicated that you work closely with the 
National Institute of Standards and Technology (NIST) on standards 
development for the technologies in your portfolio.
    How many of your projects are coordinated with NIST and with 
standards-developing bodies? All of them? I am wondering whether any 
Federally-funded technology does or should have standards developed 
concurrently with the technology itself.
    Answer. Response was not received at the time of publication.
    Question 5. What are the options for first responders when it comes 
to assessing whether a piece of equipment is a good purchase? I know 
S&T has the SAVER program, and FEMA has the Authorized Equipment List. 
Can you please provide the committee with a list of all of the 
different programs like this that are available to evaluate first 
responder technologies, describe how they are different, and tell us 
where the gaps still are?
    Answer. Response was not received at the time of publication.
       Questions From Chairman Daniel Lungren for Robert Griffin
    Question 1. I was interested to hear you mention in your testimony 
that at least one of the projects you have worked on is covered by the 
SAFETY Act. As you know, I am a big believer in the value that the 
SAFETY Act law has brought to homeland security through liability 
limitations.
    Can you please describe how much and in what ways you coordinate 
with the SAFETY Act Office at S&T to try to push more first responder 
technologies through their process toward designation or certification, 
which could increase their usage in the field?
    Answer. Response was not received at the time of publication.
    Question 2. While DHS makes significant acquisitions of technology 
for its components, little guidance is provided in the annual budget 
forecast about capabilities that merit development funding, and what 
future funds might be devoted to commercializing such capabilities. 
This makes it challenging for policymakers, State and local 
governments, the private sector, and research and development 
organizations to prepare for future needs and impacts of DHS investment 
decisions. Congress has asked DHS to develop a multi-year budget 
forecasting process similar to the 5-year process undertaken by the 
Department of Defense.
    Can you tell us how S&T is contributing to multi-year planning 
efforts, and explain how multi-year planning can help you be a better 
steward of taxpayer dollars?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
